No.

In the

Supreme Court of tje SHntteb States
SHIRLEY JN JOHNSON
Petitioner,
v.
NEW DESTINY CHRISTIAN CENTER CHURCH, INC.
a/k/a Paula White Ministries
a/k/a City of Destiny
PAULA MICHELLE MINISTRIES, INC.,
a/k/a Paula White Ministries
PAULA MICHELLE WHITE
a/k/a Paula Michelle Cain
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
APPENDIX TO THE
PETITION FOR A WRIT OF CERTIORARI
Shirley Jn Johnson, Pro se
P.O. Box 58818
Seattle, WA 98138
(253) 846-6805
Email: theremnantsjnj@yahoo.com

1

TABLE OF CONTENTS
Page
Appendix A - (Court of Appeals’ unpublished
opinion affirming the District Court’s deci­
sion filed on May 20, 2019..............................

la

Appendix B - (District Court’s order denying
Petitioner’s Rule 52(b) motion to amend
judgment filed on September 29, 2018.........

10a

Appendix C - (District Court’s memorandum
opinion and order denying punitive dam­
ages filed on July 31, 2018..............................

13a

Appendix D - (Petitioner’s Reply to Respond­
ents’ Principal Brief filed 12/21/2018...........

35a

Appendix E - (New Destiny’s sworn answers
to Petitioner’s First Request for Admis­
sions Joint Exhibit 55......................................

69a

Appendix F - (Paula White’s sworn answers
to Petitioner’s First Request for Admis­
sions Joint Exhibit 63.....................................

77a

(Paula Michelle Ministries,
Appendix G
Inc.’s sworn Answers to Petitioner’s First
Request for Admissions Joint Exhibit
73

83a

Appendix H - (Paula White Ministries’ Copy­
right Infringement Complaint filed March
27, 2014..........................................................

89a

Appendix I - (Copyright infringement com­
plaint from which Respondents copied ver­
batim their false allegations filed Febru­
ary 28, 2014.......................................................

99a

11

TABLE OF CONTENTS
Page
Appendix J - (Constitutional provisions,
Statutes, Rules, Canons involved).............

110a

Appendix K: (Case law complete quotations)

118a

la
APPENDIX A
Case: 18-13940

Date Filed: 05/20/2019
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-13940
Non-Argument Calendar

D.C. Docket No. 6:15-cv-01698-RBD-TBS
SHIRLEY JOHNSON, individual,
Plaintiff - Appellant,
Versus
NEW DESTINY CHRISTIAN CENTER CHURCH,
INC., Florida not for profit corporation, a.k.a. Paula
White Ministries, PAULA MICHELLE MINISTRIES,
INC., Florida not for profit corporations, a.k.a. Paula
White Ministries, PAULA MICHELLE WHITE, indi­
vidually and in her official capacity as President, Di­
rector and Senior Pastor of New Destiny Christian
Center Church, Inc., and as Director and Incorporator
of Paula Michelle Ministries, Inc., and as Director of
Resurrection Life THC, Inc., a.k.a. Paula Michelle
Cain,
Defendants - Appellees,

2a
RESURRECTION LIFE THC, INC. Florida non-profit
(not for profit) corporation,
Defendant.

Appeal from the United States District Court
for the Middle District of Florida

(May 20, 2019)
Before TJOFLAT, JORDAN, and BRANCH, Circuit
Judges.
PER CURIAM:
Shirley Johnson, proceeding pro se, appeals from
the district court’s order declining to award her pun­
itive damages following a bench trial in her successful
action against New Destiny Christian Center Church,
Inc. (“New Destiny”), Paula Michelle Ministries, Inc.
(“PWM”), and Paula Michelle White. We affirm.
I.
In 2014, PWM sued Johnson for copyright infringe­
ment. Johnson operates a YouTube channel. She uses
that channel primarily to criticize White’s sermons at
New Destiny, frequently posting video clips of those
sermons, commenting on and critiquing them, and
arguing that White misrepresents the true tenets of
Christianity. White’s son, the manager of PWM’s
online presence, consulted with PWM’s attorney to de­
termine whether PWM had a viable copyright

3a
claim against Johnson based on her use of clips of
White’s sermons. Counsel stated he believed there was
a valid legal basis for a lawsuit, so PWM brought one.
Defendants aver that after some time passed, counsel
advised that the legal fees outweighed any benefit
from the suit, and PWM voluntarily dismissed it.
Johnson then brought this pro se malicious pro­
secution diversity action under Florida law. Because
of Defendants’ misconduct during discovery, the dis­
trict court entered a default judgment against them on
the merits. See Fed. R. Civ. P. 37(b)(2)(vi). The action
then proceeded to a bench trial on damages.
Johnson sought non-economic damages and nomi­
nal damages pursuant to 17 U.S.C. § 512(f) and puni­
tive damages pursuant to Fla. Stat. § 768.73. In sup­
port of her punitive damages claim, she alleged inten­
tional malice in Defendants’ bringing the copyright
infringement suit, asserting that White had person­
ally attacked her in her sermons. But evidence on
those sermons adduced at trial revealed that White
never mentioned Johnson by name. In one sermon
that Johnson contends is relevant, White said, “I in­
tend to be a menace to you” and “I am in this battle,
and I am going to win this battle.” White testified that
“this battle” was against Satan as an “enemy to []
God’s kingdom” and that she never directs her ser­
mons at anything personal. Yet in another sermon,
White asserted she was being persecuted and referred
to a “legal situation.” White admitted that the only
lawsuit in which she was a party was Johnson’s suit
against her and that she could have been referring to
Johnson. But she could not say with certainty
that “legal situation” meant “lawsuit,” as there were
other “legal situations” the church faced.

4a
After the bench trial, as stipulated by the parties,
the district court awarded $1,207.93 in economic dam­
ages incurred in defending the copyright infringement
action. It also awarded $12,500.00 in damages for
emotional distress resulting from that action.
But the court refused to award punitive damages.
Citing Florida law, the court explained that it needed
to consider several items in light of the evidence pre­
sented: the egregiousness of each defendant’s con­
duct; the degree of harm; and each defendant’s net
worth. The court concluded that although the copy­
right infringement action may have been motivated in
some part by ill will, there was still insufficient evi­
dence to support a punitive damages award. In partic­
ular, based partly on its credibility assessments,1 it
found that PWM had a good-faith basis for relying on
counsel in initiating the copyright infringement action
and that PWM’s primary purpose in that action was to
prevent infringement.
II.
She raises numerous
Johnson timely appealed,
These
include,
at least in her
issues before us.

1 White’s son had testified that several YouTube channels
would be listed in the search results for “Paula White Ministries”
or “Paula White,” even though those channels were not affiliated
with PWM or White. He stated that it was “[v]ery important” to
PWM that it “concentrate viewership” of its copyrighted material
on its own YouTube channel, over which it had control. The dis­
trict court credited this testimony, which was intended to show
that PWM had a non-mahcious motive in protecting its copy­
righted materials.

5a
statement of the issues,2 whether the district court
erred in denying punitive damages; whether the dis­
trict court erred in finding insufficient evidence of
2 Later in her briefing, Johnson also raises other arguments
that are without merit. First, she argues that “the district court
erred in finding that a default judgment was punishment enough
for [Defendants]” (capitalization removed). We suspect this point
is another way of framing her request for punitive damages. If
she means the argument literally, we still reject it. Johnson
failed to object to the magistrate judge’s recommendation of de­
fault judgment, which the district court adopted. This Court’s
rules bar Johnson’s argument on appeal. See 11th Cir. R. 3-1
(forbidding challenges on appeal to magistrate judge’s report and
recommendation if party had the opportunity to object). To the
extent Johnson refers to her request following the default judg­
ment that the district court grant all the relief asked for in her
complaint, the district court was not required to grant that re­
quest. The scope of the discovery sanction was the district court’s
choice. Indeed, we employ an abuse-of-discretion standard in
evaluating the district court’s decision to impose a defaultjudgment sanction under Rule 37. See Adolph Coors Co. v. Move­
ment Against Racism & the Klan, 111 F.2d 1538, 1543—44 (11th
Cir. 1985) (“On appeal we will . . . find an abuse of discretion if
less draconian but equally effective sanctions were available.”).
Having reviewed the record, we conclude the district court did
not abuse its discretion in declining to award without a hearing
the damages for which Johnson prayed in her complaint.
Johnson also later contends that the district court was biased
against her. We find no merit in this contention, which is simply
a recasting of Johnson’s broader argument: that the district court
made inferences from the facts with which Johnson disagrees.
We note also that she never moved for the district judge to recu­
se.
Finally, Johnson appears to believe the district court erred in
calculating her compensatory damages. We do not find this issue
has been “plainly and prominently” raised, certainly here and
perhaps even in the district court, and we therefore deem it aban­
doned. See United States v. Jim, 891 F.3d 1242, 1252 (11th Cir.
2018) (“Under our caselaw, a party seeking to raise a claim or

6a
malice; whether the district court erroneously allowed
Defendants to use an advice-of-counsel “affirmative
defense”;3 whether the district court erroneously al­
lowed Defendants to “re-argue” the issue of fair use;
and whether various agency law theories apply in this
case. 4
Notwithstanding Johnson’s framing of the issues,
our review convinces us that this appeal boils down to
one question: whether the district court erred in find­
ing the evidence insufficient to support an award of
punitive damages.
issue on appeal must plainly and prominently so indicate. Other­
wise, the issue—even if properly preserved at trial—will be con­
sidered abandoned.” (quoting United States v. Jernigan, 341 F.3d
1273, 1283 n.8 (11th Cir. 2003)), petition for cert, filed, (U.S. Jan.
7, 2019) (No. 18-891).
3 Johnson appears to suggest the default judgment nullified
Defendants’ answer containing their advice-of-counsel affirma­
tive defense, which means they should not have been able to use
advice-of-counsel evidence. Yet “even a sanctioned defendant
must be permitted to contest the nature and extent of its wrong­
doing in the punitive-damages phase of the trial.” Belle Glade
Chevrolet-Cadillac Buick Pontiac Oldsmobile, Inc. v. Figgie, 54
So. 3d 991, 998 (Fla. 4th DCA 2010). The advice-of-counsel evi­
dence was highly probative of the motive for pursuing the copy­
right infringement suit.
4 Johnson argues that PWM and New Destiny are vicariously
liable for White’s actions. But that argument is irrelevant to the
question of punitive damages. The district court did not deny
punitive damages on the grounds that White’s actions could not
be imputed to her companies but rather on the grounds that
Johnson failed to show intentional misconduct or gross negli­
gence as required for punitive damages under Florida law. Fur­
ther, the district court directed the clerk to enter judgment
for the compensatory damages jointly and severally against all
the defendants—White, New Destiny, and PWM.

7a
“After a bench trial, we review a district court’s de­
cision to award or deny punitive damages for abuse of
discretion.” Winn-Dixie Stores, Inc. u. Dolgencorp,
LLC, 746 F.3d 1008, 1035 (11th Cir. 2014). “A district
court abuses its discretion if it applies an incorrect le­
gal standard, follows improper procedures in making
the determination, or makes findings of fact that are
clearly erroneous.” Vega v. T-Mobile USA, Inc., 564
F.3d 1256, 1264 (11th Cir. 2009) (quoting Klay v. Hu­
mana, Inc., 382 F.3d 1241, 1251 (11th Cir. 2004)).
“When findings of fact are based on determinations
about witnesses’ credibility, the deference accorded
the trial judge is even more significant ‘for only the
trial judge can be aware of the variations in demeanor
and tone of voice that bear so heavily on the listener’s
understanding of and belief in what is said.’” Johan­
sen v. Combustion Eng’g, Inc., 170 F.3d 1320, 1335
(11th Cir. 1999) (quoting Anderson u. City of Bessemer
City, 470 U.S. 564, 575 (1985)).
In a diversity case, we apply state substantive law
to determine whether there was sufficient evidence of
conduct warranting punitive damages. See Toole v.
Baxter Healthcare Corp., 235 F. 3d 1307,1317 (11th
Cir. 2000). Florida law provides that a “defendant may
be held liable for punitive damages only if the trier of
fact, based on clear and convincing evidence, finds
that the defendant was personally guilty of intentional
misconduct or gross negligence.” Fla. Stat. § 768.72(2).
‘“Intentional misconduct’ means that the defendant
had actual knowledge of the wrongfulness of the
conduct and the high probability that injury or
damage to the claimant would result and, despite that
knowledge, intentionally pursued that course of con­
duct, resulting in injury or damage.” Id. § 768.72(2)(a).

8a
“‘Gross negligence’ means that the defendant’s con­
duct was so reckless or wanting in care that it consti­
tuted a conscious disregard or indifference to the life,
safety, or rights of persons exposed to such conduct.”
Id. § 768.72(2)(b). Given these exacting standards,
even for torts where liability also “contain[s] . . . the
elements of willfulness, a finding of liability for com­
pensatory damages does not dictate an award of puni­
tive damages.” Bankers Multiple Line Ins. Co. v.
Farish, 464 So. 2d 530, 533 (Fla. 1985).
Here, the district court did not abuse its discretion
in declining to award Johnson punitive damages. The
district court correctly applied Florida law, and its fac­
tual determinations were not clearly erroneous. The
record supports Defendants’ contention, credited by
the district court, that they relied on counsel to inves­
tigate whether there was a reasonable, good-faith ba­
sis to sue Johnson for copyright infringement. The rec­
ord and the district court’s credibility determinations
also demonstrate that the court did not clearly err in
concluding that Defendants’ primary motive for the
infringement suit was to protect their copyright. As
for White’s sermons, they are at best tenuous evidence
that White was upset with Johnson—certainly not
enough to demonstrate “intentional misconduct or
gross negligence” in deciding to bring the copyright
infringement suit. Finally, although Johnson’s brief­
ing regularly refers to Defendants’ misconduct during
discovery, Defendants have already faced a serious
sanction for that misconduct. Any liability for punitive
damages turns on Defendants’ tortious conduct before,
not during, this lawsuit. Cf Ault v. Lohr, 538 So. 2d
454, 456 (Fla. 1898) (finding that, although it does not
require a compensatory damages award, a punitive

9a
damages award requires a finding of liability for the
underlying cause of action).
Because the record and the district court’s credibil­
ity determinations support the conclusion De­
fendants filed the copyright infringement suit to pro­
tect their copyright rather than out of malice against
Johnson, the district court did not err in declining to
award punitive damages.5 Accordingly, the district
court’s rulings in all respects are
AFFIRMED.

5 Johnson moved to amend the judgment under Rule 52(b) of
the Federal Rules of Civil Procedure, contending the district
court overlooked or disregarded evidence that entitled her to pu­
nitive damages. The district court denied that motion, finding
Johnson was “simply unhappy with the result” and was imper­
missibly attempting to relitigate a matter already decided.
Johnson also appeals the district court’s order denying her mo­
tion to amend. Having reviewed the motion, we conclude the dis­
trict court’s characterization was correct: Johnson sought to call
the court’s attention to evidence already presented and consid­
ered. Rule 52(b)’s limited scope forecloses Johnson’s strategy. See
Fontenot v. Mesa Petrol. Co., 791 F.2d 1207, 1219 (5th Cir.
1986) (“The purpose of [Rule 52(b) motions] is to correct manifest
errors of law or fact or, in some limited situations, to present
newly discovered evidence. It bears emphasizing that in a dis­
trict court’s Rule 52(a) opinion memorandum of a decision follow­
ing a bench trial, the court is “not obliged to recite and analyze
individually each and every piece of evidence presented by the
parties.” Holton v. City of Thomasville Sch. Dist., 425 F.3d 1325,
1353 (11th Cir. 2005). As we affirm the district court’s decision on
the merits, we necessarily also affirm its ruling on Johnson’s
Rule 52(b) motion.

10a
APPENDIX B
Case 6:15-cv-01698-RBD-TBS
Document 270 Filed 08/29/18
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
SHIRLEY JN JOHNSON,
Plaintiff,
v.

Case No.
6:15-cv-1698-Orl-37TBS

NEW DESTINY CHRISTIAN
CENTER CHURCH, INC.;
PAULA MICHELLE MINIST­
RIES, INC.; and PAULA
MICHELLE WHITE,
Defendants.
ORDER
Before the Court is Plaintiffs Verified Rule 52(b)
Motion to Amend Findings and Judgment. (Doc. 266
(“Motion”).) Defendants responded. (Doc. 269.) On
consideration, the Court denies the Motion.
Plaintiff brought this action for malicious pro­
secution against Defendants on October 8, 2015 seek­
ing, among other relief, punitive damages. (Doc. 1.)
Following the entry of default judgment against De­
fendants (Doc. 183), this case proceeded to a two-day
bench trial on the issue of Plaintiff s damages (see

11a
Doc. 192, 248, 249, 256, 257). The Court then issued a
memorandum opinion and order outlining its findings.
(Doc. 264 (“Order”).) The Order found that Plaintiff
was entitled to costs and non-economic damages total­
ing $13,707.93; but found that Plaintiff was not enti­
tled to punitive damages. (Id. at 15—17.) Plaintiff now
moves the Court to amend the Order to find her enti­
tled to punitive damages. (Doc. 266, pp. 1—2.) She con­
tends the Court “overlooked or disregarded material
evidence and testimony, and failed to give detailed
findings on some of Plaintiffs evidence, which, if con­
sidered, would produce a different outcome.” (Id. at 2.)
Defendants oppose (Doc. 269), so the matter is ripe.
A Rule 52 motion for the court to or amend its find­
ings is not intended to allow parties to relitigate old
issues, advance new theories, or rehear the merits of a
case. Fontenot u. Mesa Petroleum Co., 791 F.2d 1207,
1219 (5th Cir. 1986). Rather, the “purpose” of Rule 52
motions “is to correct manifest errors of law or fact or,
in some limited situations, to present newly discov­
ered evidence.” Id. Furthermore, in a Rule 52(a) mem­
orandum opinion, a district court is “not obliged to re­
cite and analyze individually each and every piece of
evidence presented by the parties.” Holton v. City of
Thomasville Sell. Dist., 425 F.3d 1325, 1353 (11th Cir.
2005).
Here, Plaintiffs Motion claims the Court over­
looked or disregarded evidence she submitted that
clearly indicates malice and entitles her to punitive
damages. (Doc. 266, pp. 2-17.) Yet the Court com­
prehensively considered all the evidence submitted
and found that Plaintiff was not entitled to punitive
damages. (See Doc. 264, p.l (“Having considered
the pleadings, evidence, argument, and relevant legal

12a
authority, and having made determinations on the
credibility of the witnesses, the Court hereby renders
its decision on the merits of this case pursuant to Fed­
eral Rule of Civil Procedure 52.”); see also Doc. 264,
pp. 1-19.) Plaintiff is simply unhappy with the result,
so brought this Motion to re-litigate old issues. Such is
not grounds to alter or correct the judgment under
Rule 52, see Fontenot, 791 F.2d at 1207, so the Motion
is due to be denied.
Accordingly, it is ORDERED AND ADJUDGED
that Plaintiff Shirley Jn Johnson’s Verified Rule 52(b)
Motion to Amend Findings and Judgment. (Doc. 266)
is DENIED.
DONE AND ORDERED in Chambers in Orlando,
Florida, on August 29, 2018.

•'ROY B. DALTON JFV
United States District Judge

Copies to:
Counsel of Record
Pro Se Party

13a
APPENDIX C
Case 6:15-cv-01698-RBD-TBS
Document 264 Filed 07/31/18
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION

SHIRLEY JN JOHNSON,
Plaintiff,
Case No.
, 6:15-cv-1698-Orl-37GJK

v.

NEW DESTINY CHRISTIAN
CENTER CHURCH, INC.;
PAULA MICHELLE MINISTRIES,
INC.; and PAULA MICHELLE
WHITE,
Defendants.

MEMORANDUM OPINION AND ORDER
This cause is before the Court following a two-day
bench trial. (See Docs. 248, 249, 256, 257.) Having con­
sidered the pleadings, evidence, argument, and rele­
vant legal authority, and having made determina­
tions on the credibility of the witnesses, the Court
hereby renders its decision on the merits of this case
pursuant to Federal Rule of Civil Procedure 52.

14a
I. BACKGROUND
Plaintiff Shirley Jn Johnson (“Johnson”) initiated
this action against Defendants for, inter alia, mali­
cious prosecution under Florida law related to a 2013
copyright infringement suit filed against Johnson by
Paula White Ministries. (See Doc. 1); see also Paula
White Ministries v. Shirley Jn Johnson, 6:14-cv-497GAP-DAB (Mar. 27, 2014), Doc. 1 (“Copyright In­
fringement Action”). Following contentious discovery, the Court entered default judgment against
Defendants on Johnson’s malicious prosecution
claims. (See Doc. 183.) The matter then proceeded to
trial for Johnson’s damages. (See Doc. 192.).
II. JURISDICTION
The Court has diversity jurisdiction over this mat­
ter pursuant to 28 U.S.C. § 1332. The parties are
diverse, and the Court previously accepted Johnson’s
assertion that the amount-in-controversy exceeds
$75,000. (See Doc. 131, pp. 12-16.)
III. FINDINGS OF FACT
A.

Agreed Findings of Fact1
1. Plaintiff operates the YouTube channel “the­
remnantsjnj.”
2. Plaintiff is the registered owner of the You­
Tube channel “theremnantsjnj.”
3. Plaintiff is responsible for the content on the
YouTube channel “theremnantsjnj.”
4. Plaintiff started her YouTube channel on
November 1, 2011

1 The parties stipulated to these facts, as provided by their Joint
Pre-Trial Statement. (See Doc. 222, pp. 12—13.)

15a
5.

Plaintiff created the website http://www.theremnantsjnj .com/.
6. Plaintiffs website was “built and ready for
public consumption” on September 11, 2011.
7. Paula White Ministries sent an initial take­
down notification to YouTube on February 2,
2012.
8. On February 6, 2012, YouTube sent Paula
White Ministries and Plaintiff a notification
that certain content was removed.
9. On February 22, 2012, Plaintiff filed a coun­
ter-notification with YouTube requesting her
content be reinstated.
10. Plaintiffs YouTube channel was restored on
May 14, 2012.
11. Mr. Sadaka sent Plaintiff a Cease & Desist
letter on October 7, 2013.
12. The Copyright Infringement Action was filed
by attorneys of the NeJame Law Firm on be­
half of Paula White Ministries (d/b/a of Paula
Michelle Ministries, Inc.) on March 27, 2014.
13. YouTube removed certain content on Plain­
tiffs YouTube channel as a result of another
notification by Paula White Ministries on
May 2, 2014.
14. Plaintiff filed a counter-notification with You­
Tube requesting her content be reinstated on
May 14, 2014.
15. Paula White Ministries notified YouTube
that the Copyright Infringement Action was
filed on May 15, 2014.
16. YouTube declined Plaintiffs request to

16a
reinstate content as Copyright Infringement
Action was pending on June 4, 2014.
17. The Copyright Infringement Action was dis­
missed on January 22, 2015.
18. Plaintiffs YouTube channel was restored on
February 10, 2015.
19. This Malicious Prosecution Action was filed
on October 8, 2015.
20. Plaintiffs economic damages are limited to
monetary damages that she sustained as re­
sult of defending against the underlying
copyright action. These damages total $1,207.93.
21. Plaintiff has no other economic damages re­
lated to her defense of the underlying copy­
right action, but Plaintiff also seeks her
costs of prosecuting this suit.
22. Plaintiff has not suffered any monetary loss
as a result of her YouTube channel being
taken down. However, Plaintiff contends she
sustained economic damages in getting her
YouTube channel restored. Plaintiff is not
seeking to recover such damages in this
action, but is seeking those damages in a
separate action, styled Shirley Jn Johnson v.
New Destiny Christian Center Church, Inc.
et al, 6:17-cv-710-Orl-37GJK.
23. Plaintiffs claim for mental pain and anguish
involves the “garden variety” emotional
injuries she sustained during the underlying
copyright action, which concluded on
January 22, 2015.
24. Plaintiff has recovered from her past mental

17a
and emotional injuries.
25. Plaintiff did not seek psychological or psych­
iatric treatment for injuries, nor was she
examined, diagnosed or treated for a
specific mental/psychiatric disorder or in­
jury as a result of Defendants’ conduct.
26. Defendant White has not specifically refer­
red to Plaintiff by name in any of the ser­
mons or videos Plaintiff has produced in
this action or intends to utilize at trial.
B. Court’s Additional Findings of Fact2
i. Initiation of copyright infringement action
1. Paula White-Cain (“White”) is Senior
Pastor at New Destiny Christian Cen­
ter. She preaches sermons to her con­
gregation, which she personally crafts
and writes. (Doc. 256, p. 44:1—19.)
Her sermons are recorded, and she
sometimes uses parables or discusses
her personal life when preaching.
2. Beyond preaching, White is the presi­
dent of New Destiny Christian Cen­
ter. (Id. at 109:3-6.) She delegates
various responsibilities to others in­
volved in her organization, including
day-to-day operations, day-to-day
management, and working with
2 The following facts have been established by a
preponderance of credible evidence. To the extent that
any of these facts may represent conclusions of law,
the Court adopts them as such.

18a

3.

4.

attorneys. {Id. at 107;6—15.) White’s Son,
Brad Knight (“Knight”), served as Opera­
tions Manager of the Paula White Minis­
tries (“PWM”), and is now employed on a
contract basis with New Destiny Chris­
tian Center. {Id. at 108:11—18! Doc. 257,
p. 8:5-18.) Knight handles issues involv­
ing YouTube and the online presentation
and distribution of White’s sermons. {See
Doc. 257, pp. 10-12.)
Between 2012 and 2015, Knight was re­
sponsible for growing PWM’s internet
program, which included placing ads on
videos of White’s sermons. {Id. at 12-15.)
Part of this process included sending
YouTube takedown notices for videos believed to be violating the Digital Millennium Copyright Act (“DMCA”) by “reuploading [PWM’s] content or using
[PWM’s] content.” {Id. at 6:2-5.) To that
end, Knight and another employee would
search YouTube for White and PWM to
“see what videos were using [their] con­
tent.” {Id. at 17:6-11.) In doing this,
Knight discovered Johnson’s page, which
had high video counts on videos that in­
cluded clips from White’s sermons. {Id. at
17:12-17.) Johnson was then sent a
DMCA takedown notice by PWM. {Id.
atl6:l3-15.) In response, Johnson filed a
counter-notification and her videos were
restored. {Id. at 16—18.)
About a year and a half later, Knight
consulted with attorney Tom Sadaka

19a
about Johnson’s videos to see if PWM had
a valid basis for a copyright infringe­
ment claim against Johnson. (Id. at 21:3
-18.) Knight was the “only person that
dealt directly with [Sadaka]” concerning
Johnson’s suit. (Id. at 22:22—25.) On review Sadaka affirmed that PWM “had a
reasonable basis for a lawsuit.” (Id. at
22:10-12.) PWM’s “primary intention
was the removal of [Johnson’s] videos
and the concentration of [its] platform on
YouTube.” (Id. at 22:15-17; see also id. at
23:1-14.) Knight acted based on his un­
derstanding that Johnson was using
PWM’s content. (Id. at 25:5—17.) Knight
believed that Johnson’s videos did not
constitute “fair use,” based on his own
understanding and based on the advice of
Sadaka that there was a reasonable basis
for the claim. (Id. at 29-30.) Ultimately,
as the lawsuit progressed, Knight decid­
ed that the costs of litigation and legal
fees outweighed the benefits of continu­
ing suit to receive income from YouTube.
(Id. at26-27.) So he suggested to Sadaka
that they drop the suit. (Id. at 27:7—15;
see also id. at 28.) The Copyright In­
fringement Action was ultimately dis­
missed by PWM. (Id. at 38.) The Court
finds Knight’s testimony credible.
5.

White’s involvement in the Copyright In­
fringement Action was limited. (See id. at
27:16-22.) On being told by her son that
a lawsuit against Johnson was “the only

20a
way we could pursue what we wanted to
do with YouTube,” White “gave [Knight]
the authority to do what [he] thought
was best, and [he] proceeded.” (Id/, see
also id. at 37-38.) The Court accepts
Knight’s testimony that White had min­
imal involvement in the Copyright In­
fringement Action, but that he sought
her authorization before initiating suit.
ii.

This action
6. After the Copyright Infringement Action
was dismissed, Johnson initiated this ac­
tion for malicious prosecution against
Defendants. (Doc. 1.) She claims White and
Defendants had “malice and evil motive” in
instigating the Copyright Infringement Ac­
tion, and sought to injure her personally.
(See id. 1ft 38, 56, 59.) Johnson believes
that White knew about her videos and
used her sermons to personally attack her,
even though White did not mention her by
name. (See id. tt 59-65.) At trial, Johnson
offered several clips from sermons as sup­
port. (PL Exs. 9D-9G.)
7. One of Johnson’s clips came from White’s
sermon on May 1, 2016, where White dis­
cussed loving people despite personal is­
sues you might face with them. (PI. Ex.
9G.) White focused on John 13:34—35,
which says, “A new commandment I give
unto you, That ye love another; as I have
loved you, that ye also love another. By
this shall all men know that ye are my

21a
disciples, if ye have love to one anoth­
er.” (Id.;.)
8.

At some point in the sermon, White gave
examples of personal strife she’s faced
and people who she’s had difficulties
with. (Defs. Ex. B-79; see also PI. Ex. 9G.)
She used these examples to show that it’s
not easy to love such people, but because
God commands it, it must be done. (Defs.
Ex. B-79; PI. Ex. 9G.)

9.

Excerpted, she preached:
I see great things happen. Then, that
means, Rachel, that I’m going to have to
really learn how to love, because love is
not just something that comes so natur­
ally to all of us. I mean, we’ve been hurt.
Am I the only person that’s ever been
hurt in life? Am I the only person that’s
ever been offended in life? Am I the only
person that’s ever wanted to knock some­
one out in a New York second in life? Am
I only person that wanted to say, you are
saying this about me but let me tell
about your—am I the only person that
wanted to hire a detective, get some
stuff, put it out and publish it and
start a blog? Now I know, see, uh, please
don’t get into the dirty side of my mind—
am I the only person that ever wanted to
be ruthless and —ok, praise the Lord —
wanted somebody who was saved but not
sanctified come after you in Jesus’ name?
But He says, Paula that’s not my

22a
disciple. You will know—you will, you
will love, you will know that you’re a dis­
ciple by the love you have for one an­
other. Not just in your tribe, Paula. Not
just at New Destiny Christian Center.
Not just within your denomination. Not
just within your—your personality
frame. But within— in every single per­
son who is a born-again believer. You
know how many people say you can’t
preach cuz you’re a woman? . . . You will
know—this is the new command —Paula
are you my disciple? Do you still love? Do
you want me to start calling out names? .
. . Do you love all the people that put the
junk out on the internet? Do you love—I
can’t call one out because I’m in a present
case right now—do you love the one that
says this about you? See this is a reality.
I’m just telling— you have a story, too —
do you love the one that slept with your
husband? In church? I’m sorry, I’m just
getting real with you right now. OK,
she’s going, “That’s too much love.” Not if
you’re going to be a disci —[laughing]—
she’s going that’s too much love. That’s
reality. Guys, those aren’t something I’m
fabricating, I’m just talking to you about
my story. Because if I’m going to be a
disciple, could you have given me some
other new commandment, God? Could
you have told me if I love, I’d just work
ninety hours a week for you? That I’d be
known as a disciple if I fasted and I

23a
prayed a lot? No, I’ll be known as
a disciple by loving. And loving’s not
always easy. Loving doesn’t always
feel good to my flesh. In fact, to whom
much is forgiven, they love much/
myself [unintelligible]. God didn’t say
I have to like you all the time.”
(PI. Ex. 9G)
10. Johnson presented this clip (and others)
as evidence of White’s “malice” against
her. (Doc. 256, p. 31:21-24.)
11. At that time, the only lawsuit White was
involved in was this action with Johnson.
Without specifically remembering, White
admitted that she could have been
speaking about Johnson when she was
giving examples of situations to still love
in and said, “I can’t call one out because
I’m in a present case right now.” (See id.
at 64-75).
12. The Court finds credible Johnson’s as­
sertion that White was referring to her in
the May 1, 2016 sermon. But the Court
does not find this reference indicates any
malice from White directed at Johnson.
Rather, this sermon focused on God’s
command to love others, even those who
work against you or bring you difficult
situations. (Id. at 103:17—25, 104:1—25,
105:1-4. This was White’s interpretation
of John 13:34-35 from the Bible, and the
Court finds no animosity or ill will in this
mention. (Id. at 103:17—24, 104:1—2;

24a
Defs. Ex. B-79.)
13. Beyond this May 1, 2016 sermon, John­
son provided other clips from White’s ser­
mons where White does not mention
Johnson by name, but Johnson contends
reference her in a negative light. (See PI.
Exs. 9D, 9E, 9F.) On review, the Court
finds no such reference to Johnson in
White’s other sermons presented, so re­
jects Johnson’s contentions. In so doing,
the Court finds credible White’s testi­
mony that she was not referring to John­
son in these clips. (Doc. 256, pp. 105—07.)
iii.

Johnson’s testimony
14. Johnson testified about her version of the
Copyright Infringement Action and its
effects on her life. (See Doc. 256.)
15. Johnson first became aware of White
when she saw her on television back in
2001 or 2002. (Doc. 256, pp. 117-18.)
Johnson believed that White was pur­
posefully twisting the Scriptures in her
preaching, which prompted her to start
speaking out against White. (Id. at 118—
20.) This began by distributing written
documents, but then Johnson began
“spreading her message” by developing a
website and YouTube channel. (Id. at 119
-20.) Her videos on YouTube did not con­
tain advertisements or seek revenue.
(Id.at 123—34.) Johnson has never tried
to monetize her videos or receive income
from these activities. (Id. at 124.)

25a
16. In February 2012, Johnson received noti­
fication from YouTube that her channel
had been taken down based on a com­
plaint of copyright infringement, which
prompted her to start researching copy­
right infringement and how she could re­
store her channel. {Id. at 125-26.) She
then contacted YouTube to file a counter­
notification and restore her channel. {Id.)
The channel was restored in May 2012.
{Id. at 127.)
17. Almost two years later, in March 2014,
Johnson received word from two attor­
neys of the filing of the Copyright In­
fringement Action. {Id.) They sought to
represent her, but Johnson did not feel
pressurized or worried at the time be­
cause she believed there was no infringe­
ment claim. {Id. at 127—28.)
18. Once Johnson received the Complaint
from the Copyright Infringement Action
and read through the allegations, she be­
gan to worry. {Id. at 128.) Specifically she
was alarmed by “the very serious nature”
of the allegations and the claims that she
“sold [White’s] videos and profited from
the sale of those videos.” {Id.) Johnson
has no legal education, and testified
that she thought the Copyright In­
fringement Action could lead to prison.
{Id. at 128—29.) She formed this belief
after doing her own research into civil
and criminal copyright infringement, but
Johnson did not seek guidance from an

26a
attorney to verify the accuracy of her
beliefs. {Id. at 129, 157—58.)
19. Johnson testified that the Copyright In­
fringement Action caused her reputa­
tional harm. {Id. at 130-31.) Specifically,
she claims to have heard “people
whispering and rumoring” about the
lawsuit, but she was unable to name
these people or provide further details.
{Id. at 130-31; 149—52.) Furthermore,
none of these individuals named her
when they were apparently discussing
her lawsuit. {Id. at 149—52.)
20. Johnson also claims she suffered mental
anguish and emotional harm from the
Copyright Infringement Action. {Id. at
131—32.) Specifically, she claims that she
“never really had any peace of mind,”
that her “mind was always in turmoil,”
she “couldn’t sleep,” and when she could,
“it was broken sleep” because her mind
was “always active.” {Id.) Sometimes, she
would “go to bed in tears because [she]
thought that [she] would not be able to
make it out of this lawsuit because [the]
charges were very believable.” {Id. at
132.) She also “began to emotionally eat,
just eating nonstop,” which caused her to
“gain[] probably about 50 pounds.” {Id. at
133:1-7.) Furthermore, her personal
relationships were affected—she reported
that she “couldn’t interact with people,”
because “[a]11 [she] could do [was] worry
about going to prison, worry about trying

27a
to fight this lawsuit.” {Id. at 134:6-14.)
Her close relationship with her daughter
deteriorated—before the Copyright In­
fringement Action, they went places and
did things together. {Id. at 135:23—25.)
“That ended” with the suit, as Johnson
“didn’t have time” and lost interest.” Id.
at 134:25, 135:1-7.) And Johnson’s hob­
bies took the backseat: She used to sew,
do carpentry work, and garden; but
hasn’t “really been able to do anything
but just focus on this lawsuit.” {Id.
atl36:8—22.) But her anxiety and stress
diminished when the motion to dismiss
was filed. {Id. at 138: 3—12.) She did not
seek medical attention for any of these
injuries. {Id. at 160—61.)
21. Johnson chose not to hire a lawyer to re­
present her. (Id. at 136.) This was be­
cause “they didn’t believe [her],” and
“[she] didn’t feel like [she] would get
good, fair representation if the attorney
didn’t . . . even believe [her].” {Id. at
136:4—7.) Thus, she chose to represent
herself, for which she used the local law
library’s resources. {Id. at 136-37.)
“[She] was at the law library almost eve­
ry day and almost from the time it
opened to the time it closed.” {Id. at
137:11-13.)
22. Johnson then initiated this malicious
prosecution action “[b]ecause [she] want­
ed justice.” {Id. at 140:7.)

28a
23. The Court finds credible Johnson’s testi­
mony about mental anguish and emotion­
al harm she suffered as a result of the
Copyright Infringement Action, as some­
one unfamiliar with the legal process
faced with a daunting situation.
24. The Court does not find credible John­
son’s testimony that her reputation and
character were damaged from the Copy­
right Infringement Action, as she was un­
able to provide any details about this and
no one uttered her name in their sup­
posed “whispers” about her.
iv.

Expert’s testimony
25. Expert Samuel A. Lewis, a board certi­
fied intellectual specialist attorney also
testified. (Doc. 257, pp. 44—71.) He was
asked to evaluate the manner in which
the Copyright Infringement Action was
brought, the basis of the case, and wheth­
er it was brought in good or bad faith.
(Id. at 47:15-20.) Based on his review,
Lewis concluded that at the time the
Copyright Infringement Complaint was
filed, PWM could make out a prima facie
case of copyright infringement. (Id. at
51:7—10.) This was because PWM “had a
registration on the videos,” it “own[ed]
the videos,” and “because [Johnson] was
copying those videos and using them and
republishing them.” (Id. at 51: 11—14.)
Despite Johnson’s claim of “fair use” in
publishing her videos, Lewis concluded

29a

26.

27.

28.
29.

that PWM still had a valid basis for
bringing suit—as fair use is a defense,
not a right, and its validity turns on a
highly factual analysis. {Id. at 51—52.)
What is more, that Johnson took only
pieces of White’s sermons did not prevent
a finding of copyright infringement, since
copyright includes the right to make
derivative works. {Id. at 52—53.)
Lewis concluded “[t]hat there was a
reasonable basis for” the Copyright In­
fringement Action, and based on his
analysis of the fair use factors, partic­
ularly regarding Johnson’s motivation for
the copying, he found “there’s certainly a
good basis for finding that [fair use]
wouldn’t have applied.” {Id. at 54—55.)
Lewis also testified that it seemed as
though PWM relied on its attorney, Tom
Sadaka, for his determination about
whether there was a good faith basis for
the lawsuit, (id. at 54:4-10), and he
found no evidence that PWM acted reck­
lessly in filing the Copyright Infringe­
ment Action {id. at 56:5—10).
The Court finds Lewis’ testimony cred­
ible.
Defendants also presented evidence of
their financial statements. (Doc. 256, pp.
208-24.)

IV. CONCLUSIONS OF LAW
As the Court entered default judgment for Defend­
ants’ liability on the malicious prosecution claims, the

30a
legal conclusions remaining are Johnson’s damages.
(See Docs. 183, 192.) Johnson seeks economic damages
for her costs associated with the Copyright
Infringement Action; nominal damages, non-economic
damages; punitive damages; costs of this action; and
sanctions. (Doc. 222, p. 11.)
A. Economic and Nominal Damages
1. The parties have agreed that Johnson will
receive $1,207.93 in economic damages
for her costs from the Copyright Infringement
Action. (Doc. 222, p. 2; Doc. 256, p. 10:3—6.)
Thus, the Court will award Plaintiff these
damages.
2. Nominal damages are appropriate where
proof of actual injury is absent. See Dykes v.
Hosemann, 743 F.2d 1488, 1500 (11th Cir.
1984). This is not the case here, as Plaintiffs
economic injuries could be proven, were
stipulated to, and will be awarded. Thus, the
Court will not award Plaintiff nominal
damages.
B. Non-Economic Damages
3. In an action for malicious prosecution, “the
plaintiff may recover all damages that are
the natural and probable consequences of
the action complained of.” Ware v. United
States, 971 F. Supp. 1442, 1471 (M.D. Fla.
1997) (citing Florida Jur. 2d, False Im­
prisonment § 39 (1995) But “[t]he damages
must be certain and proximate and not
uncertain, contingent, or speculative.” Id.
(alteration in original).

31a
4. The Court finds that Johnson is not entitled
to non-economic damages for her claimed
injury to character and reputation. John­
son’s testimony here was not credible, and
the Court finds these claimed damages
speculative.
5. Johnson’s testimony about the mental an­
guish she suffered from the Copyright In­
fringement Action was credible. Specifically,
Johnson testified about the lack of sleep,
diminished enjoyment in various hobbies,
and overall worry about the litigation and its
consequences on her life. The Court finds
that Johnson, as an individual unfamiliar
with the legal process, credibly suffered
emotional harm from the Copyright In­
fringement Action. But as Johnson did not
seek medical treatment and her symptoms
have abated, the Court finds a minimal
award for these damages appropriate. Thus,
the Court awards Johnson $12,500.00 for
these damages.
C.

Punitive Damages
6. Although the default judgment entered
against Defendants entitles Johnson to
punitive damages, sufficient evidence must
have been presented to determine the
amount against each defaulted defendant, if
any. See, e.g., B-K Cypress Log Homes Inc. u.
Auto-Owners Ins. Co., No. l:09-cv-211-GRJ,
2012 WL 13018500, at *11 (N.D. Fla.
MaylO, 2012); Bankers Multiple Line Ins.
Co. v. Farish, 464 So. 2d 530, 532 (Fla.

32a
1985). This determination considers the
egregiousness of each Defendant’s conduct,
the degree of harm to Johnson by Defend­
ants’ conduct in the Copyright Infringement
Action, and each Defendant’s net worth. See
Belle Glade Chevrolet-Cadillac Buick Ponti­
ac Oldmobile, Inc. v. Figgie, 54 So. 3d 991,
997—98 (Fla. 4th DCA 2010) (citing Fla. Stat.
§ 768.72(2) (2009) and Humana Health Ins.
Co. of Fla., Inc. v. Chipps, 802 So. 2d 492,
495-96 (Fla. 4th DCA 2001)).
7. On review, the Court finds there is in­
sufficient evidence to award Johnson puni­
tive damages. Specifically, the Court finds
that while pursuit of the Copyright Infringe­
ment Action may have been motivated, in
some part, by ill will toward Johnson, none­
theless, PWM relied on its counsel to inves­
tigate whether a good faith basis existed to
support the copyright infringement claim.
Based on Lewis’s testimony, the Court finds
credible that PWM had a good faith basis to
sue Johnson for copyright infringement, and
its primary purpose for initiating the Copy­
right Infringement Action was to prevent
such infringement. Thus, Plaintiff is not en­
titled to punitive damages here. Cf. Lawson
v. Kroger Co, 997 F. 2d 214, 217 (6th Cir.
1993) (finding no malice where the defend­
ant sought criminal sanctions against plain­
tiff for passing bad checks even though the
defendant “might have collected on the
checks as a corollary to criminal prosecu­
tion”).

33a
D.

Additional Costs
30. As to Johnson’s claim for costs associated
with prosecuting this action, no evidence
was presented at trial regarding these costs.
But as the prevailing party here, she may
seek to recover these costs from the Clerk by
filing a Bill of Costs. See Fed. R. Civ. P. 54
(d)(1); see also http://www.uscourts.gov/
forms/other-forms/bill-costs-district-court.
E. Sanctions
31. The Court finds additional monetary sanc­
tions are not necessary for Defendants’ noncompliance with discovery, as the Court
already imposed the harshest sanction of
default judgment. (See Doc. 183.)
In sum, the Court finds that Johnson is entitled to
$1,207.93 in economic damages and $12,500.00 in
non-economic compensatory damages,
totaling
$13,707.93 in damages. In so doing, the Court denies
Defendants’ oral motion for judgment as a matter of
law (Doc. 253) and renewed motion (Doc. 254).
IV.

CONCLUSION

Accordingly, it is ORDERED AND ADJUDGED
as follows:
1. Plaintiff Shirley Jn Johnson shall recover from
Defendants New Destiny Christian Center
Church, Inc.; Paula Michelle Ministries, Inc.,
and Paula Michelle White $13,707.93 total in
damages.
2. Defendants’ ore tenus motion for judgment as a
matter of law (Doc. 253) and ore tenus renewed

34a
motion for judgment as a matter of law (Doc.
254) are DENIED.
3. The Clerk is DIRECTED to enter final judg­
ment in favor of Plaintiff and close the file.
DONE AND ORDERED in Chambers in Orlando,
Florida, on July 30, 2018.

■'ROY 6. DALTON JR/

United States District Judge

Copies to:
Counsel of Record
Pro se party

35a
APPENDIX D
Case No: 18-13940 Date Filed: 12/21/2018
No. 18-13940-HH
IN THE UNITED STATES COURT OF APPEALS
for the
ELEVENTH CIRCUIT
Shirley Jn Johnson, individual
Appellant-Plaintiff
v.
New Destiny Christian Center Church, Inc.,
Paula Michelle Ministries, Inc.,
Paula Michelle White.
Appel lees-Defendan ts
APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE MIDDLE DISTRICT OF FLORIDA
CASE NO: 6:15-cv-1698-Orl-37TBS
(Hon. Roy B. Dalton, Jr. & Hon. Thomas B. Smith)
APPELLANT/PLAINTIFF SHIRLEY JN JOHNSON’S
REPLY BRIEF
Shirley Jn Johnson
Pro Se
P.O. Box 58818
Seattle, Washington 98138
(253) 846-6805

36a
Case No. 18-13940-HH
Shirley Jn Johnson v. New Destiny Christian Center
Church, Inc., et al
CERTIFICATE OF INTERESTED PERSONS AND
CORPORATE DISCLOSURE STATEMENT
Pursuant to Fed. R. App. P. 26.1 and 11th Cir. R.
26.1, the Appellant-Plaintiff, Shirley Jn Johnson, pro
se, submits this Certificate of Interested Persons and
Corporate Disclosure, and disclose the following
(*=addition):
1. The names of all trial judges, attorneys, persons,
association of persons, firms, partnerships, or cor­
porations that have an interest in the outcome of this
case, including subsidiaries, conglomerates, affiliates,
parent corporations, any publicly held corporation
that owns 10% or more of the party’s stock, and other
identifiable legal entities related to a party:
Braula, LLC
Cammack, Krista N., Defense Counsel
Center Industries *
Coward, Clay H., Defense Counsel
Dalton, Roy B. Jr., Honorable Judge,
United States District Court for the Middle
District of Florida
D’Lugo, Michael R., Defense Counsel
Ford, Richards H., Defense Counsel
Guide One Insurance Company, carrier for
Appellees-Defendants

*

37a
Case No. 18-13940-HH
Shirley Jn Johnson v. New Destiny Christian Center
Church, Inc., et al
CERTIFICATE OF INTERESTED PERSONS
AND CORPORATE DISCLOSURE STATEMENT(cont.).
•

Hires, Eric V., Defense Counsel

•

Identity Productions, LLC

•

Identity Records, LLC

•

Johnson, Shirley Jn, Appellant-Plaintiff

•

New Destiny Christian Center Church, Inc.,
Appellee-Defendant a/k/a Paula White Ministries

•

New Destiny Christian Center Church Inc.,
Appellee-Defendant a/k/a Paula White Ministry
Outreach

•

Operation Love Outreach

•

Paula Michelle Ministries, Inc. a/k/a Paula
White Ministries, Appellee-Defendant

•

Paula White Enterprises, Inc.

•

Prayer Glory, LLC

•

Resurrection Life THC, Inc. (Administratively
Dissolved 9/23/2016)

•

Smith, Thomas B. Hon. Magistrate Judge,
United States District Court for the Middle
District of Florida

•

The Law Office of Eric V. Hires, for AppelleesDefendants

38a
Case No. 18-13940-HH
Shirley Jn Johiison v. New Destiny Christian Center
Church, Inc., et al
CERTIFICATE OF INTERESTED PERSONS
AND CORPORATE DISCLOSURE STATEMENT(cont.).
•

White, Paula Michelle, Appellee-Defendant
a/k/a Paula Michelle Cain

•

Wicker, Smith, O’Hara, McCoy & Ford, P.A., for
Appellees-Defendants

•

Williams, Erica K. - Guide One Insurance

I hereby certify that, I am unaware of any conflict
of interest involving the district judge and magistrate
judge assigned to this case.

s/ Shirley Jn Johnson
Shirley Jn Johnson, Pro Se
the re mnantsj nj@y ahoo. com
P.O. Box 58818
Seattle, WA 98138
(253) 846-6805

39a
TABLE OF CONTENTS
Page
CERTIFICATE OF INTERESTED PERS­
ONS AND CORPORATE DISCLOSURE
STATEMENT..................................................

C1-C3

TABLE OF CONTENTS................................
TABLE OF CITATIONS................................

11

REPLY...............................................................

1

I.

1

RECORD EVIDENCE OF DISTRICT
COURT’S BIAS AND PREJUDICE....

2

THERE IS SUFFICIENT RECORD
EVIDENCE TO AWARD PUNITIVE
DAMAGES...............................................

16

III. STANDARD OF REVIEW....................

20

IV. CONCLUSION........................................

22

II.

TABLE OF CITATIONS
Cases

Page

de Palo v. Countryside Station Limited Lia­
bility Company Case No. 6:12-cv-204-0rl-31
KRS; 2012 WL1231968 (M.D. Fla. Apr.
12, 2012).................................................

18

In re Jennings
670 F. 3d 1329 (11th Cir. 2012)...................

22

Johansen v. Combustion Engineering, Inc.
170 F. 3d 1320, (11th Cir. 1999)..................

20

Kingsland v. City of Miami
382 F. 3d 1220 (11th Cir. 2004)..................

23

Malautea v. Suzuki Motor Co., Ltd.
987 F. 2d 1536 (11th Cir. 1993)...................

1-2

40a
TABLE OF CITATIONS (cont.l
Cases

Page

Nesmith v. Alford
318 F. 2d 110 (5th Cir. 1963)..................

21

Nye & Nissen v. US
336 U.S. 613 (1949)...................................

17

Professional Real Estate Investors, Inc. v.
Columbia Pictures Industries, Inc.
508 us 49 (1993)........................................

21-22

United States v. Gellene
182 F. 3d 578 (7th Cir. 1999)..................
U.S. v. Walser
3 F. 3d 380 (11th Cir. 1995)......................

18
18

41a
REPLY
In reply to Appellees-Defendants’ Response (Prin­
cipal Brief), first, Appellees-Defendants misrepresent­
ed to this Court (as they, so often, did to the District
Court) when they stated that:
"... Ms. Johnson has omitted significant,
testimony from multiple witnesses who
testified during the course of the twodav trial. That testimony is absolutely
necessary for this Court to perform its
review function. Presumably, Ms. John­
son refused to include this testimony be­
cause it does not fit within her narrative
of this case.” Avvellees’ Brief Ps. 17
[emphasis added].
That is absolutely untrue, as there were only five
(5) witnesses who testified, as reflected in the trial
transcript, Docs. 256, 257: 1) Ms. White; 2) Mr.
Knight; 3) Mr. Lewis; 4) Mr. Hardin (who testified re­
garding Appellees’ finances only); and 5) Ms. Johnson
(Appellant). Notably, Appellees-Defendants did not
name the alleged other multiple witnesses, or include
the “absolutely necessary” testimony of the “multiple”
witnesses.
All attorneys, as “officers of the court,”
owe duties of complete candor and pri­
mary loyalty to the court before which
they practice. ... In England, the first lic­
ensed practitioners were called “Servants
at law of our lord, the King” and were ab­
solutely forbidden to “decei[ve] or beguile
the Court.” In the United States, the first
Code of Ethics, in 1887, included one

42a
canon providing that “the attorney’s of­
fice does not destroy ... accountability to
the Creator,” and another entitled “Client is
not the Keeper of the Attorney’s Conscience.
...Too many attorneys ... have ... sold out to
the client. We must return to the original
principle that, as officers of the court,
attorneys are servants of the law rather
than servants of the highest bidder.” We
must rediscover the old values of our
profession. The integrity of our justice
system depends on it.
Malautea v . Suzuki Motor Co.Ltd., 987 F.2d 1536.
*1546 ri21. *1547 tilth Cir. 19931.
Second, Appellees-Defendants contend that, “Al­
though Ms. Johnson has asserted that the District
Court was biased and prejudiced in her Principal
Brief, there is absolutely no record evidence to support
this assertion.” Appellees’ Brief Ps. 23. To the con­
trary, there is sufficient, and very disturbing, record
evidence which proves that the District Court’s
decision was biased and prejudiced.
I. RECORD EVIDENCE OF THE
COURT’S BIAS AND PREJUDICE

DISTRICT

Out of all the evidence in the record, to support its
decision to deny Appellant-Plaintiff entitlement to
punitive damages, the District Court relied on only
one altered video to disprove malice, and Mr. Lewis’
testimony that Appellees- Defendants had a good faith
basis for filing the Copyright Lawsuit because they
relied on the advice of their attorney - Mr. Sadaka.
1. In its Memorandum Opinion and Order, (Doc.
264, Pg.8, (Appellant’s Appendix, Vol. I), although

43a
referencing Appellees-Defendants’ Exhibit B-79,
and Appellant-Plaintiffs Exhibit 9G, the Dis­
trict Court stated that the following excerpt was
presented by Plaintiff as her Exh. 9G to prove
malice against Ms. White. Doc. 264, Pages 8-9
read:
9. Excerpted, she preached [high­
lighting by Appellant-Plaintiff]:
I see great things happen. Then, that
means, Rachel, that I’m going to
have to really learn how to love, be­
cause love is not just something that
comes so naturally to all of us. I
mean, we’ve been hurt. Am I the only
person that’s ever been hurt in life?
Am I the only person that’s ever been
offended in life? Am I the only person
that’s ever wanted to knock someone
out in a New York second in life? Am I
only person that wanted to say, you
are saying this about me but let me
tell about your — am I the only person
that wanted to hire a detective, get
some stuff, put it out and publish it
and start a blog? Now I know, see,
uh, please don’t get into the dirty
side of my mind — am I the only per­
son that ever wanted to be ruthless
and — ok, praise the Lord — wanted
somebody who was saved but not
sanctified come after you in Jesus’
name? But he says, Paula that’s not
my disciple. You will know—you
will, you will love, you will know that

44a
you’re a disciple by the love you have
for one another. Not just in your
tribe, Paula. Not just at New Destiny
Christian Center. Not just within
your denomination. Not just within
your — your personality frame. But
within — in every single person who
is a born-again believer. You know
how many people say you can’t
preach cuz you’re a woman? ... You
will know - this is the new com­
mand - Paula are you my disci­
ple? Do you still love? Do you
want me to start calling out
names? ... Do you love all the peo­
ple that put the junk out on the
internet? Do you love - I can’t
call one out because I’m in a pre­
sent case right now - do you love
the one that says this about you?
See this is a reality. I’m just telling —
you have a story, too - do you love
the one that slept with your hus­
band? In church? I’m sorry, I’m just
getting real with you right now. OK,
she’s going, “That’s too much love.”
Not if you’re going to be a disci [laughing] - she’s going that’s too
much love. That’s reality. Guys, those
aren’t something I’m fabricating, I’m
just talking to you about my story.
Because if I’m going to be a disciple,
could you have given me some other
new commandment, God? Could you

' 45a
have told me if I love, I’d just work
ninety hours a week for you? That I’d
be known as a disciple if I fasted and
prayed a lot? No, I’ll be known as a
disciple by loving. And loving’s not
always easy. Loving doesn’t always
feel good to my flesh. In fact, to
whom much is forgiven, they love
much/myself [unintelligible]. God
didn’t say I have to like you all the
time.”
(PI. Ex. 9G.)
10. Johnson presented this clip
(and others) as evidence of White’s
“malice” against her. (Doc. 256, p.
31:21-24.) [underline added].
Appellant-Plaintiff (Johnson) did not present the
above clip, Appellees-Defendants did, which is Def.’s.
Exh. B-79, not Pla.’s. Exh. 9G.
MR. COWARD: The May 2016 clip was
taken from a sermon, when we [Defend­
ants! showed the larger nortion [Def.
Exh. B-79 above cited as Pla. Exh.
9G\, of the sermon - and the Court will
have the entire thing in evidence. It
was taken from a sermon about loving
people, loving people who you had some
conflict with. But you couldn’t have
known that from looking at the plaintiffs
snippet of it or her clip [Pla. Exh. 9G
highlighted]. We had to show the larger
portion to show the context of it.
[emphasis added].

46a
Doc. 257. Ps 84. Lns.
Appendix Vol. II, Pg. 120).

15-22 (Appellees’

Supp.

2. The District Court took a “snippet” of AppellantPlaintiffs Exh. 9G and inserted that portion into the
above clip, which is Appellees-Defendants’ Exh. B-79,
then the District Court cited the above clip as
“Pla.Ex. 9G”, and stated “Johnson presented this
clip and others) as evidence of White’s ‘malice’ against
her.” [emphasis added]. Not only does this demon­
strate extreme bias and prejudice on the part of the
District Court, but it is also purposefully misleading.
The Appellees-Defendants presented that clip (B-79)
as evidence to disprove malice, and to rebut AppellantPlaintiffs Exhibit 9G. However, the District Court
combined the two exhibits, and then stated that
Appellant-Plaintiff submitted the combined exhibits
as her Exhibit 9G to prove malice.
3. In its Memorandum Opinion and Order (Doc.
264, Pg. 9), the District Court further stated that
[underline added]:
11. At that time (May 1, 20161. the
only lawsuit White was involved in
was this action fmalicious prose­
cution] with Johnson. Without specifi­
cally remembering, White admitted
that she could have been speaking
about Johnson when she was giving
examples of situations to still love in
and said, “I can’t call one out because
I’m in a present case right now.” (See
id at 64 —75).
12. The Court finds credible Johnson’s
assertion that White was referring to

47a
her in the May 1, 2016 sermon. But
the Court does not find this reference
indicates any malice from White di­
rected at Johnson. ...
The Trial Court itself pointed out that what was in
the mind of the Appellees-Defendants at the time they
filed the Copyright Infringement Complaint deter­
mined whether or not Appellees-Defendants acted
with deliberate indifference, malice, or wanton disre­
gard.
THE COURT: I take your point. I’m just
sharing with you that what was in the
mind of Ms. White and her organization
when the underlying claim was filed is
what, to me, is determinative of the ques­
tion of whether or not it was done with
deliberate indifference, malice, or wanton
disregard, not what was in Ms. Johnson’s
mind, [underline added].
Doc. 256. Ps. 169. Lris. 4-10 (Appellees Supp. Appen­
dix Vol. I, Pg. 199).
Notably Mr. Coward stated at trial, as well:
The April of 2016 clip in which she said,
“I got in a legal situation I regret.” Paula
White said and testified she may have
been referring to the plaintiff with regard
to that. It was left at that. There was no
questioning by the plaintiff as to why she
would have regret. Perhaps in retrospect
with the span of time, being a defendant
in a lawsuit, was it worth it? Regret two
years later does not equate to animus at
the time of the lawsuit. It’s speculation.

48a
Doc. 257. Ps. 85. Lns. 7-16 (Appellees’ Supp. Appendix
Vol. II, Pg. 121).
4. The April 28, 2016 clip is part of AppellantPlaintiffs Exh. 9G, which the District Court ignored,
which will be discussed in detail, later. But, by that
same reasoning and logic, preaching love 2 years later,
does not disprove malice at the time the lawsuit was
filed, either. Yet as the only evidentiary proof, when
determining whether malice existed at the time Appellees-Defendants filed the copyright complaint, the
District Court chose to rely on parts of a sermon which
Ms. White preached in 2016. which was two (21 years
after. Appellees-Defendants filed the Copyright Com­
plaint, and over one ('ll year after the Copyright Ac­
tion was closed. This equates to bias and prejudice.
5. Moreover, the District Court ignored or dis­
regarded material, relevant parts of Plaintiffs Exhibit
9G which prove that Ms. White acted with malice.
Appellant-Plaintiffs Exhibit 9G consists of three (3)
different clips; 1) February 7, 2016, April 28, 2016,
and May 1, 2016.
THE COURT: 9-G will be received.
(Plaintiffs Exhibit 9-G was received in
evidence.)
THE COURT: I noted February 7, 2016;
April 28, 2016; and May 1, 2016. Those
are the clips that were shown as far as 9G is involved.
Doc. 256. Ps. 65. Lns. 15-20 (Appellees’ Supp. Appen­
dix Vol. I, Pg. 95).
MR. COWARD: — on this 9-G - because,
as Ms. Johnson said, I believe there may

49a
be three together. I just want to make
sure as each one is played, we get the
date of them down there. Because they
show on the video, but I want to make
sure it’s on the record because the time of
the video may be important, [underline
added].
Doc. 256. Ps. 64. Lns.10-15 (Appellees’ Supp. Appen­
dix Vol. I, Pg. 94).
6. The Trial Court knew that Plaintiffs Exhibit
9G consisted of three different clips, yet the District
Court chose to focus only on part of the third clip May 1, 2016. Below - in its entirety - is the 3rd clip
which Plaintiff submitted:
Do you know how many people have writ­
ten articles about what a Jezebel, money
whore I am. Oh come on guys. Do youy’all know how many protesters have
stood outside. You will know. This is a
new command. Paula are you my dis­
ciple? Do you still love? Do you want
me to start calling out names? Do you
still love R.T.? I’m sorry. I’m just gone
bring it on down. Do you still love the
woman that started the fist fight, when
Ms. B. got up and broke it up? Thank you
B. I do love you for breaking up that fist
fight. I’m like, Lord have mercy. Welcome
to New Destiny Christian Center. Do you
love the man that sued you when he was
the one that was stealing and that was
doing wrong and you had to be quiet? I
didn’t call his name out, but I should.

50a
And he was on staff at New Destiny
Christian Center. Oh come on, I just
gotta make it real guys. See, it will go out
everywhere. Do you still love L.G. after
he wrote that about you? Do you love
all the people that put the iunk out
on the internet? Do you love? I can’t
call one out because I’m in a pre­
sent case right now. Do you love
the one that savs this about vou?
Matthew Chapter 18, offenses must
come. Not might come. They must come.
You will be persecuted. You will be be­
trayed. You will be talked about. It has to
happen. ... And so, let 'em keen writing.
They’re not going to stop. Let 'em keen
hating.
Pla. Exh. 9G (3rd clip) - parts of May 1, 2016 sermon
7. The above clip reads nothing like what the Dis­
trict Court presented as Pla. Ex. 9G, on pages 8-9 of
its Memorandum Opinion and Order (Doc. 264), ex­
cept for what is highlighted. Importantly, the District
Court also concluded that on May 1, 2016, the only
lawsuit (“present case”) that Ms. White was involved
in was the malicious prosecution action (which
stemmed from the underlying copyright infringement
action): the District Court accepted that Ms. White
was speaking of Ms. Johnson in the combined May 1,
2016 clip. Ms. White was also speaking of Ms. Johnson
in the above May 1, 2016 clip, taken from the same
sermon. Appellant-Plaintiff presented the above clip to
demonstrate that Ms. White filed or authorized the
underlying copyright infringement complaint, as a
personal vendetta, which constitutes malice. Ms.

51a
White was speaking of past events in which she felt
that she had been persecuted by people who had writ­
ten about, talked about, protested against her, and
put the junk out on the internet [You Tube], and “says
this” about her. Ms. White stated, “Let ‘em keep
writing.” “Let ‘em keen hating.” There was no men­
tion of copyright infringement.
8. The District Court simply disregarded Clips 1
and 2 of Exhibit 9G, which also establish that Ms.
White filed or authorized the underlying copyright in­
fringement complaint for an improper purpose, and as
a personal vendetta which constitutes actual malice,
or at the very least legal malice, which warrants puni­
tive damages.
Excerpt, - Plaintiffs Exhibit 9G (2nd clip in its entire­
ty), April 28, 2016, Ms. White preached:
Isn’t this great? I got myself in a few
messes in my life. But one of the messes I
got myself in is I took on a situation of
somebody that was persecuting me so I
let it go into a legal situation and took
it there when I should have just realized,
hey don’t even bother with this because
this is not even about you because perse­
cution comes before, for the Word’s sake.
So when they are calling you every name
in the book it’s really not even about you,
it’s about what you are carrying. In fact,
if you are not being persecuted, if some­
body is not hating on you, if somebody is
not talking about you, then chances are,
you don’t have too much seed in you.
Pla. Exh. 9G. (2nd clip)

52a
9. In the above video clip, Ms. White stated that
she had gotten herself into a mess, because someone
was persecuting her and she let it go into a legal situa­
tion “and took it there.” when she should have just let
it go. This proves that Ms. White filed the copyright
infringement lawsuit as a personal vendetta because
she felt that she was being persecuted — and not for
copyright infringement.
Ms. White testified that it was possible that the
legal situation that she was referring to was the un­
derlying Copyright Infringement Lawsuit.
Q: Were you speaking of the underlying
copyright infringement complaint, that
you regretted having filed that com­
plaint against me? Is that what you were
referring to?
A: It’s possible ....
Doc. 256. Pg. 74. Lns 17-21: See also Pg. 76. Lns. 4-12
(Appellees’ Supp. Appendix Vol. I, Pgs. 104, and 106).
See also Mr. Coward’s statement:
The April of 2016 clip in which she said,
“I got in a legal situation I regret.” Paula
White said and testified she may have
been referring to the plaintiff with regard
to that.
Doc. 257. Pg. 85. Lns. 7-10 (Appellees’ Supp. Appen­
dix, Vol. II, Pg. 121).
10. Ms. White testified that it was possible that
she was talking about Appellant-Plaintiff and the un­
derlying Copyright Infringement Lawsuit, yet the Dis­
trict Court simply disregarded this evidence, and trial
testimony, which is direct evidence that Ms. White

53a
filed the copyright infringement lawsuit for an im­
proper purpose. This equates to bias and prejudice.
Excerpt - Pla. Exh. 9G (1st clip in its entirety):
There are fans all in that stadium. They
don’t know the first thing about the people
except for what they see by the media,
which is driven by the devil, most of it.
OK. And so, or someone else’s opinion.
There’s no such thing left as fair journalism
anymore, hardly. So, so it’s driven by that.
Anything goes. And by the way, public fig­
ures have different laws than you do.
Which means, like if you are a public fig­
ure, I’m considered a public figure legally,
[personal names] considered a public figure
legally which means there’s a different set
of laws. If they talk against you and write
something and it’s not true, Sonya, you can
sue them and own them. And you can own
'em. Oh, let it, I’ll teach you how to own
‘em. Praise the Lord. If they do it against
me, it’s fair game. They can sav whatever
they want against me. They can pay peo­
ple. And people under the Amendment and
under their Constitutional rights never
have to disclose who they are. So they can
say all kinds of stuff, which they have. I
can still sue. It’s just much more difficult
for me. So If you're gone get on the field,
and you’re gonna be a superbowl champion,
there are gonna be reporters that write
against you. You don’t, you don’t play real
music. She doesn’t preach real truth. That

54a
person doesn’t know how to play. They’re
not a real champion. You gotta block all
that stuff out.
Pla. Exh. 9G ('clip 1)
11. The District Court ignored or disregarded this
part of Appellant-Plaintiffs Exhibit 9G. Ms. White
was speaking of how people had talked against her,
and had written about her, claiming that she doesn’t
preach real truth; there was no mention of copyright
infringement.
Additionally, the District Court stated that:
Beyond this May 1, 2016 sermon, John­
son provided other clips from White’s ser­
mons where White does not mention
Johnson bv name, but Johnson con­
tends reference her in a negative light.
(See PI. Exs. 9D. 9E. 9F.) On review, the
Court finds no such reference to
Johnson in White’s other sermons
presented, so rejects Johnson’s conten­
tions. In so doing, the Court finds credi­
ble White’s testimony that she was not
referring to Johnson in these clips. (Doc.
256, pp. 105-07.) [emphasis added].
Doc. 264. Ps. 10. flJ.
12. Ms. White did not mention by name, or refer­
ence Ms. Johnson in any of her sermons, (Pla. Exhs.
9D, 9E, 9F, 9G) presented as evidence. Yet the District
Court chose to believe that in the May 1, 2016 clip
(Appellees-Defendants’ Exhibit B-79, and the
“snippet” of Appellant-Plaintiffs Exhibit 9G), Ms.
White “was” referring to Ms. Johnson — because Ms.

55a
White was preaching a message of love, which depicts
Ms. White in a favorable light.
13. Even after Ms. White testified to, and her at­
torney Mr. Coward confirmed that Ms. White testified
that she may have been referring to Ms. Johnson in
the April 28, 2016 clip, the District Court still chose to
disregard this direct evidence, because it is unfavor­
able to Ms. White, and it proves malicious intent. This
equates to bias and prejudice.
14. Again, in Appellees-Defendants’ Exhibit B-79,
and the “snippet” of Appellant-Plaintiffs Exhibit 9G,
Ms. White did not refer to Appellant-Plaintiff by
name, yet the District Court chose to believe Ms.
White that she was speaking of Appellant-Plaintiff (2
years after the fact), because the message was about
love, even though only 5 months before filing the
Copyright Infringement Complaint, and six (6) days
after sending Appellant-Plaintiff a Cease and Desist
letter ton October 7. 2013) threatening a lawsuit.
Ms. White was preaching that she was in a battle, in
which she intended to inflict damage to, become a
menace to, and stop the enemy, on October 13, 2013.
Excerpt - Pla. Exh. 9E (1st Clip in its entirety) —
5 months before filing the Copyright Lawsuit):
(10/13/13): I’m in this battle, but I’m gone win
this battle. It’s a fixed fight. Which means I’ve
gotta learn how to war effectively, then. I am
going to come against everything that come
against me. You have to make up your mind
that you don’t accept the adversity, the bad
and the evil that the enemy wants to disgrace
you with. So you gotta make a decision,

56a
I’d write it real big in my notes, I will
stop the enemy. And I’m gone to teach
you how. Let’s stop the enemy. Come on
let’s stop the enemy that we will no long­
er be a reproach. So once you make that
decision like the Psalmist in Psalm 22
verse 6 through 8. He says but I am a
worm and not a man. Scorned by men
and despised by people. All who see me
mock me. They hurl insults. Shaking
their heads. But verse 18 says enough.
The enemy has mocked me. he’s re­
proached me. he’s tried to bring shame to
my family, shame to my name, shame to
my situation, but enough. A threat
means an expression of intention to in­
flict damage, a menace. The enemy does
not care about you until you become a
threat. When you become a threat, it lit­
erally means that you express an inten­
tion to inflict damage. You express inten­
tion to be a menace. I intend to be a men­
ace to you. I am a headache and you’re
gonna have to deal with me.
Pla. Exhibit 9E received into evidence.
Excerpt - Pla. Exh. 9F (1st Clip in its entirety):
(10/13/13): Well let me tell you guys some­
thing, Satan is not hiding his agenda for your
life. He’s not, he’s not quiet about it. He’s not
hiding it. Elder he’s got a real clear plan. And
God says this is his plan. Greg, I wanna kill
you. I wanna destroy you. So what’s gonna
happen if I come to you and say I’m gone kill

57a
you? I’m gonna destroy you? Because the
plan of the enemy is to kill, steal and de..
Oh, and besides destroying you and kill­
ing you, I’m gone steal from you. I’m gone
steal your family, steal your wife, steal
your children, steal your money, steal
your reputation. You ain’t gone sit there,
you gone go, what! Those are fighting
words. You don’t even have to do the first
action. See my blood’s boiling right now
just thinking about it. Those are fighting
words. I will kick someone’s, you look at
me wrong and act like you gone take,
come, come let me think you’re gone mess
with this church. Let me think you’re
gone mess with one of the sheep in here. I
will knock you out. Plain and simple. Let
me think you’re gone mess with my mon­
ey, mess with my body, mess with my
children. You gone see a different side.
This is called survivor. Don’t let this little
small body confuse you. I will take you
down or get somebody to do it. (gesture)
And that’s for real.
Pla. Exhibit 9F received into evidence
15. The only reason that the District Court gave
for rejecting Appellant-Plaintiffs assertion that Ms.
White was speaking of her in the above clips - Pla.
Exhs. 9E, 9F (and 9D), is because Ms. Johnson was
not mentioned by name. However, strong inference
can be made that Ms. White was referring to Ms.
Johnson, because she preached the threats, and stated
that she was in a “battle” which she would win, just
six (6) days after sending Ms. Johnson a Cease and

58a
Desist Letter (Jnt. Exh 8, Appellant’s Appendix, Vol
II, Tab C) threatening a lawsuit if Ms. Johnson did not
cease and desist.
16. Ms. Johnson responded to the C & D letter on
October 21, 2013, stating her intent to lawfully con­
tinue doing what she was doing. Five (5) months later,
on March 27, 2014, Ms. White filed or authorized the
bogus (“fixed”) copyright infringement complaint against
Ms. Johnson. The District Court chose not to make
this inference, which equates to bias and prejudice.
17. On November 12, 2015, Ms. White preached:
Excerpt - Pla. Exh. 9F (2nd clip in its entirety):
And we take captive every thought to make it
obedient to Christ. Go on with verse six. And
we will be ready to punish! Every act of
disobedience once your obedience is complete.
You aren’t hearing what I am saying. You,
You, You better let the devil know. Ok. You
messed with the wrong one. You, You messed
with the wrong one. Go ahead do all you want.
I’m gonna punish vo butt! It’s on because this
is my mandate. I get it. I get it. As long as I
have breath in my body. See you don’t hear
me. You messed with Dr. Zach? You really
want me to go there? You messed with New
Destiny Christian Center? You messed with
our families. You messed with our children.
You messed with our reputation (tapping
herself on the chest). Are you for real? You
gone try to hold me to something that the
Blood has already forgiven me for? You better
punish the devil! And that’s the problem. You
are, oooohhh, don’t, I’m gone say something

59a
I’m gone regret. It’s gone go viral and
y’all gone have to defend your pastor,
again. Come on. You gotta punish! the
enemy! It’s a mandate on you! We
execute punishment on you! I’m gonna
execute punishment on you, and I’m
gonna eniov every minute of it!
Pla. Exh. 9F (2nd clip) received into evidence - same as
(Jnt. Exh. 26)
18. Just one month after Appellant-Plaintiff filed
the malicious prosecution lawsuit, Ms. White was
shouting about punishing someone (and enjoying
every minute of it) for trying to hold her to something
that the “Blood” had forgiven her for, and for messing
with her church - New Destiny Christian Center —
and her reputation, yet the District Court again re­
jected this evidence simply because it did not mention
or reference Ms. Johnson by name. By filing the
malicious prosecution action, Appellant-Plaintiff, was
attempting to hold Ms. White liable for filing or
authorizing the underlying SLAPP copyright infringe­
ment action, which Ms. White felt that she had
already been forgiven for. The District Court chose not
to make this inference. This demonstrates bias and
prejudice.
19. The one time in which the evidence could be
inferred favorably toward Ms. White, the District
Court accepted that Ms. White was referring to Ms.
Johnson. But all the other evidence which reflects
dis-favorably to Ms. White, and proves or strongly
infers malice, the District Court rejected Ms.
Johnson’s assertion that Ms. White was talking about
her.

60a
This equates to bias and prejudice.
II.

THERE IS SUFFICIENT RECORD EVIDENCE
TO AWARD PUNITIVE DAMAGES

1. In its Memorandum Opinion and Order (Doc.
264, Pg. 17, If7), the District Court held that there was
“insufficient evidence” to award punitive damages, be­
cause even though Appellees-Defendants acted partly
with ill-will, they relied upon their attorney that there
was a good faith basis for filing the Complaint. To the
contrary, there is more than sufficient evidence to
award punitive damages as demonstrated thus far in
this Reply, and in Appellant-Plaintiffs Opening Brief,
her Rule 52(b) Motion (Doc. 266), and her Findings of
Fact and Conclusions of Law (Doc. 260).
2. Mr. Sadaka, was merely a “hired gun” who con­
spired with, and aided and abetted Defendants in
filing the SLAPP (sham) copyright infringement law­
suit which he “fixed” with false allegations, that he
copied verbatim from someone else’s Complaint (Pla.
Exh A3 which was received into evidence) (Appellant’s
Appendix, Vol. II, Tab E). The District Court ignored
this direct evidence. This shows bias and prejudice.
3. Appellees-Defendants have admitted under oath
that they read a draft of the Complaint, and have
admitted that the allegations were false. (Jnt. Exhs.
55, 63, 73, Appellant’s Appendix, Vol. II, Tabs J,K,L).
Again, the District Court simply ignored this direct
evidence, and made no mention of it in its Memo­
randum Opinion and Order (Doc. 264). This shows
bias and prejudice.
4. Mr. Sadaka admitted under oath in his Affi­
davit that, “Beyond filing the Copyright Infringement
Complaint, in early 2014, I submitted a takedown

61a
notice to You Tube and complied with the takedown
requirements of 17 U.S.C. 512(f). I also advised You
Tube of the pending litigation and, as a result,
YouTube refused to reinstate several videos posted by
Ms. Johnson.” (Jnt. Exh.10, f20, Appellant’s Appen­
dix, Vol. II, Tab M). Mr. Sadaka willfully, and know­
ingly submitted a false DMCA takedown notification
to You tube which caused the removal of at least 56
non-infringing videos from Appellant’s You Tube
channel.
5. Mr. Sadaka admitted under oath that he went
beyond advising his clients to aiding and abetting, by
actually participating in the DMCA takedown process,
and the [Appellee]-Defendants authorized, or at least
allowed it. See Nve & Nissen v. US.. 336 U.S. 613.
*618 (19491:
In order to aid and abet another to com­
mit a crime it is necessary that a defend­
ant ‘in some sort associate himself with
the venture, that he participate in it as
in something that he wishes to bring
about, that he seek bv his action to
make it succeed.’ L. Hand, J., in United
States v. Peoni, 2 Cir., 100 F.2d 401, 402.
[emphasis added].
See also U.S. v. Walser. 3 F. 3d 380. HN13. *382.
*387-89 (11th Cir. 1993): United States v. Gellene 182
F. 3d 578. *594-*97 (7th Cir. 19991 (“We next ask,
therefore, whether Mr. Gellene’s abuse of his role as
attorney for the debtor significantly facilitated the
commission of the perjury. The district court deter­
mined that it did;”) [underline added].
6. Mr. Lewis, a paid witness who receives $600.00

62a
per hour for his services, testified that even if Appellees-Defendants had cut and pasted their complaint
from another lawsuit, their complaint was still legiti­
mate. Contrary to Mr. Lewis’ testimony, cut-andpasted allegations which are known to AppelleesDefendants, and their attorney to be false does not
amount to a legitimate Complaint, but rather equates
to sham litigation.
7. Apparently, cut-and-paste jobs in general (even
from one’s own prior documents) are disfavored and
frowned upon by most Courts, which are too numerous
to list here. But, see de Palo v. Countryside Station
Limited Liability Company. Case No. 6:12-cv-204-Orl31KRS; 2012 WL 1231968 at *2, *3 (M.D. 664 Fla.
Apr. 12, 2012):
“Either the Plaintiff has happened upon 40
or so unrelated businesses scattered
across the Middle District of Florida that
are violating the ADA in 19 identical
wavs, and no others — which seems un­
likely to put it mildly - or the Plaintiff has
a generic list of violations that he plops
down in every case whether it applies or
not. The generality of this cut-and-paste
list prevents the Plaintiff from using it to
establish that he has suffered the re­
quired iniurv-in-fact.” [emphasis added].
8. The fact that Appellees-Defendants’ attor­
ney, Mr. Sadaka, cut-and-pasted all 26 allega­
tions (even the ones that were inapplicable to
non-ISPs, or were “typos” as Mr. Lewis put it),
against Appellant-Plaintiff, verbatim from Case
No. 6:14-cv-337-ORL-31KRS, BWP Media USA.

63a
Inc. d/b/a Pacific Coast News v. All Access Fans. Inc..
also prevents Appellees-Defendants from using those
allegations to establish that they suffered damages,
and that they relied on the advice of their attorney.
The District Court showed bias and prejudice in
accepting Mr. Lewis’ testimony that AppelleesDefendants had a good faith basis for filing the Copy­
right Lawsuit, even after they admitted that the alle­
gations were false.
9. Further, Appellees-Defendants falsely alleged
in their Complaint that the basis for filing the Com­
plaint was to stop Appellant-Plaintiff from infringing
their copyrights, and profiting from the sale of their
copyrighted videos and photographs on her website.
(Jnt. Exh. 1). However, Mr. Knight testified that the
primary basis for filing their Complaint was to remove
Appellant-Plaintiffs videos from You Tube so that
Appellees-Defendants’ videos would appear first on
You Tube, and get a higher view count. Mr. Knight did
not mention copyright infringement, at all. See Doc.
257, Pg. 23, Lns.5-13. (Appellees-Defendants’ Supp.
Appendix, Vol. II, Pg.59). The District Court disre­
garded this evidence, which shows bias and prejudice.
10. The District Court showed bias and prejudice
in accepting Mr. Knight’s testimony as true even
though his overall testimony was inconsistent and
contradictory. See Appellant-Plaintiffs Findings of
Fact and Conclusions of Law, Doc. 260, Pgs. 9-19).
11. Ms. White testified that she delegated authori­
ty to her son Mr. Knight. Doc. 256. Pg. 108. Lns. 11-18
(Appellees’ Supp. Appendix Vol. I, Pg. 138). The Dis­
trict Court chose to ignore the fact that Ms. White is
President of the corporations with complete control,

64a
and that she gave the final approval. (See Doc. 260,
Pg. 8, Lns. 209-213; Pg. 9, Lns. 214-225). Mr. Knight
could not act without Ms. White’s approval. The Dis­
trict Court chose to believe Mr. Knight’s testimony
that Ms. White’s involvement was minimal. This
demonstrates bias and prejudice.
III. STANDARD OF REVIEW
1. The proper standard of review is de novo. The
District Court stated that its reason for denying puni­
tive damage was “insufficient evidence,” which is a
matter of law. Johansen v. Combustion Engineering.
Inc.. 170 F. 3d 1320. *1331 708 tilth Cir, 19991 (“We
conclude that, upon determination of the constitution­
al limit on a particular award, the district court may
enter a judgment for that amount as a matter of
law.”). Not only did the District Court ignore material
evidence, it went so far as to alter the one piece of evi­
dence that it used to make its determination that
malice was not present, and therefore denied puni­
tive damages. A de novo review is required to correct a
manifest injustice. Furthermore, Appellees-Defendants moved for judgment as a matter of law on the
issue of malice, compensatory and punitive damages
which the District Court denied.
2. Moreover, as alleged throughout this Action,
Appellees-Defendants did not have probable cause (a
good faith basis) to bring the SLAPP (sham) Copyright
Action. Malice, and probable cause present questions
of law. The Fifth Circuit Court of Appeals in Nesmith
v. Alford 318 F. 2d 110. *123 (5th Cir. 19631 stated:
The consequence is that the trial Court
erred in not giving the instruction in vari­
ous forms charging the jury as a matter of

65a
law that there was no probable cause for
the arrest and prosecution of the
Plaintiffs. ... ‘Malice may be defined to be
any ‘indirect motive of wrong.’ Any
motive, not a bona fide purpose, of
bringing a person to punishment as a
violator of criminal [or civil] law, is a
malicious motive on the part of the
person who acts under its influence’ . . .
[A] Court as a matter of law can rule that
a prosecution was commenced or
continued with malice. Absence of
probable cause — which we have just held
to be established as a matter of law —
does in Alabama afford a basis from
which to infer malice, [underline added].
Such is the same in Florida courts, which Appel­
lant-Plaintiff cited in her Opening Brief.
The Court of Appeals characterized
“sham” litigation as one of two types of
“abuse of ... judicial processes”: either
“‘misrepresentations...in the adjudicatory
process or the pursuit of “‘a pattern of
baseless, repetitive claims’” instituted
“‘without probable cause, and regardless
of the merits.’” 944 F. 740 2d, at 1529
(quoting California Motor Transport Co.
v. Trucking 741 Unlimited, 404 U.S.
508513,512 (1972). [underline added].
Professional Real Estate Investors. Inc, v. Columbia
Pictures Industries. Inc.. 508 US 49. *54 (1993).
Appellant-Plaintiff also alleged in her Com­
plaint that Appellant-Defendants filed their complaint

66a
in retaliation as a personal vendetta of Ms. White,
with intent to harm (and did harm) AppellantPlaintiff, which is also a matter of law. See In re Jen­
nings. . 670 F. 3d 1329. *1331 tilth Cir. 20121, How­
ever, at *1334, this Court also stated:
“Malicious” means “wrongful and without
just cause or excessive even in the ab­
sence of personal hatred, spite or illwill.’” [citations]. To establish malice, “a
showing of specific intent to harm anoth­
er is not necessary.” [citation], [underline
added].
3. Sufficient evidence, and the greater weight of
the evidence demonstrate that Appellees-Defendants
did not have probable cause to file the underlying
copyright infringement complaint, and AppelleesDefendants acted with actual malice, legal malice,
wanton disregard and reckless indifference to Appel­
lant-Plaintiffs legal rights.
IV. CONCLUSION
The District Court should not be allowed to turn a
blind eye to material, relevant evidence, and infer­
ences; and only consider evidence that the District
Court itself altered to appear more favorable to Appel­
lees-Defendants, in determining whether malice exist­
ed. The District Court chose to ignore Plaintiffs direct
evidence, and only focus on Appellees-Defendants’ and
their witnesses’ testimonies which were conflicting,
contradictory, and incredible as a matter of law in de­
termining the existence of probable cause (good faith
basis). This shows bias and prejudice. In Kinssland v.
City of Miami. 382 F. 3d 1220. *1228 filth Cir. 20041.
this Court agreed with the plaintiff that the

67a
defendant-officer’s investigation was constitutionallydeficient in determining probable cause because the
defendants turned a blind eye to information that was
available to them, but instead chose to focus upon
selected facts. The Kingsland Court also stated that:
“We cannot allow a probable cause deter­
mination to stand principally on the un­
supported statements of interested of­
ficers, when those statements have been
challenged and countered by objective
evidence.” [underline added].
In this present case, Appellant-Plaintiff has sub­
mitted sufficient evidence, including Appellees-Defendants’ own sworn Admissions, and their witnesses’
testimonies, to demonstrate the egregiousness, and
reprehensibility of Appellees-Defendants’ conduct, and
to prove the absence of probable cause warrants
punitive damages.
WHEREFORE, in the interest of justice, Appellant
-Plaintiff prays that this Honorable Court make a de
novo review, vacate or amend the District Court’s
Final Judgment, and enter an Order to include an
award of punitive damages based on the record
evidence and inferences drawn from the evidence.
Dated: December 19, 2018
Respectfully submitted:
s/ Shirley Jn Johnson
Shirley Jn Johnson, Pro Se
theremnantsjnj@yahoo.com
P.O. Box 58818
Seattle, WA 98138
(253) 846-6805

68a
CERTIFICATE OF COMPLIANCE
I certify that this brief complies with the typevolume limitation set forth in Rule 32(a)(7)(B)(ii) and
32(f) of the Federal Rules of Appellate Procedure. This
brief uses Times New Roman 14-point typeface,
Microsoft Word 2013, and contains 6,488 words, in
accordance with Federal Rules of Appellate Procedure
32(a)(5)(A) and 32(a)(6).
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on, December 19, 2018,
this Appellant’s Reply Brief was sent via Priority U.S.
Mail to be filed with the Clerk of the Court and a true
and correct copy was sent via Priority U.S. Mail
Michael R. D’Lugo and Krista Cammack, Wicker,
Smith, O’Hara, McCoy & Ford, PA - P. 0. Box 2753,
Orlando, FL 32802-2753.

•

s/ Shirlev Jn Johnson
Shirley Jn Johnson, Pro Se
theremnantsjnj@yahoo.com
P.O. Box 58818
Seattle, WA 98138
253) 846-6805

69a
VERIFICATION
Under penalty of perjury, I declare that I have read
the foregoing Appellant-Plaintiffs Reply Brief and the
facts alleged therein are true and correct to the best of
my knowledge and belief, except as to matters alleged
on information and belief, and, as to those, I believe
them to be true.
On this 19 day of Dec. 2018, before me personally
appeared SHIRLEY JN JOHNSON who _ is person­
ally known to me or _X_ who produced a WASHING­
TON driver's license bearing her name and photo­
graph as identification, and who executed this Reply
Brief.
/a/ Haitham. A. Nabass Commission Expires:
Notary Public

(

tUmUM/MUSMS
tottsyTOSc
swmwMimmw
MyAwrtntmrBtipIrtj Ju(29.2020

m <w"w m>

»!■

•J.

70a
APPENDIX E
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
SHIRLEY JN JOHNSON,
Plaintiff,
v.

CASE NO
6:15-cv-1698-Orl-37GJK

NEW DESTINY CHRISTIAN
CENTER CHURCH, INC.,
PAULA MICHELLE
MINISTRIES, INC., PAULA
MICHELLE WHITE; and
RESURRECTION LIFE THC, INC.,
Defendants.
DEFENDANT NEW DESTINY CHRISTIAN
CENTER CHURCH. INC.’S RESPONSE TO
PLAINTIFFS VERIFIED FIRST REQUEST
FOR ADMISSIONS
Defendant, NEW DESTINY CHRISTIAN CENTER
CHURCH, INC. (“New Destiny”), by and through the
undersigned attorneys, and pursuant to Fed. R.
CIV.P. 36, hereby responds to Plaintiffs Verified
First Request for Admissions dated August 10, 2016
as follows:
JOINT

np^s-

71a
First Set of Admissions, Request No. 1: When you
assumed ownership of the fictitious name ‘Paula
White Ministries’, you, your representatives, agents or
employees were aware that Paula White Ministries
was the plaintiff in a copyright infringement lawsuit.
Admit or Deny?
RESPONSE: New Destiny admits it became aware at
some point in time that Paula White Ministries was
the Plaintiff in a copyright infringement action but
after a reasonably inquiry and based on known and
readily available information, is unable to determine
an exact date.
First Set of Admissions, Request No. 2: You, your
representatives, agents or employees read the copy­
right infringement complaint and were aware of the
allegations contained therein. Admit or Deny?
RESPONSE: New Destiny admits its agents or
employees read a draft of the copyright infringement
complaint. New Destiny admits it was aware of the
general allegations contained within the copyright
infringement complaint.
First Set of Admissions, Request No. 3: You, your
representatives, agents or employees visited Plaintiffs
You Tube channel and website (“websites”) and saw
copies of Paula White Ministries’ copyrighted videos,
paid advertisements, merchandise offered for sale and
instructions for forwarding copies of Paula White
Ministries’ videos to Facebook, Instagram and Twitter
before continuing to prosecute the underlying copy­
right infringement lawsuit using the fictitious name
Paula White Ministries. Admit or Deny?
RESPONSE: New Destiny admits that it visited
Plaintiffs You Tube channel and website and saw

72a
copies of Paula White Ministries’ copyrighted videos
and other content before the underlying copyright
Infringement lawsuit was filed by Paula White
Ministries. The remaining portions of this Request
are denied.
First Set of Admissions, Request No. 4: You, your
representatives, agents or employees knew that the
allegations in the copyright infringement complaint
were false. Admit or Deny?
RESPONSE: Denied that New Destiny/Paula White
Ministries knew the allegations in the copyright
infringement complaint were false.
First Set of Admissions, Request No. 5: Paula
White is the president of New Destiny Christian
Center Church, Inc.
Admit or Deny?
RESPONSE: Admitted.
First Set of Admissions, Request No. 6: Doug
Shackelford is on staff at New Destiny Christian
Center Church, Inc. and his job title is executive
pastor. Admit or Deny?
RESPONSE: New Destiny admits that Doug
Shackelford is on staff at New Destiny, but denies
that Doug Shackelford’s job title is executive pastor.
First Set of Admissions, Request No. 7: Brad
Knight is on staff at New Destiny Christian Center
Church, Inc. and his job title is vice president and
data analyst. Admit or Deny?
RESPONSE: Denied Brad Knight is on staff and New
Destiny Church and that his job title is vice president
and data analyst.
First Set of Admissions, Request No. 8: In 2014,
Brad Knight was on staff as Chief Financial Officer

73a
(CFO) at Paula White Ministries and had knowledge
of Paula White Ministries’ alleged financial damages
due to Plaintiff allegedly infringing PWM’s copyrights.
Admit or Deny?
RESPONSE: Denied Brad knight was on staff as
CFO at Paula White Ministries in 2014 and denied
Brad Knight had knowledge of Paula White Minis­
tries’ alleged financial damages due to Plaintiff in­
fringing PWM's copyrights in 2014.
First Set of Admissions, Request No. 9: Every
response m your Amended Answer and Affirmative
Defenses (Doc. 48) is true. Admit or Deny?
RESPONSE: New Destiny Church objects to this
request to the extent it calls for a legal conclusion
regarding the viability of its affirmative defenses. New
Destiny admits all responses and affirmative defenses
asserted in its Answer and Affirmative Defenses have
merit.
First Set of Admissions, Request No. 10: Every
answer you, or your representative stated in your
“Amended Answers to Plaintiffs First Set of Interrog­
atories” in this malicious prosecution action is true.
Admit or Deny?
RESPONSE: New Destiny admits it truthfully an­
swered Plaintiffs First Set of Interrogatories in this
malicious prosecution action.
First Set of Admissions, Request No 11: The In­
surance policy which you produced to Plaintiff was an
unaltered complete, true and correct copy of the origi­
nal policy. Admit or deny?
RESPONSE: New Destiny admits the insurance pol­
icy produced was a complete, true, and correct copy of

74a
the original policy.
First Set of Admissions, Request No. 12: The by­
laws for Resurrection Life THC, Inc. that you pro­
duced to Plaintiff was a true and correct legal copy of
its original bylaws. Admit or Deny?
RESPONSE: New Destiny admits the bylaws pro­
duced to Plaintiff were a true and correct copy of Res­
urrection Life THC, Inc.’s original bylaws.
First Set of Admissions, Request No. 13: Any fur­
ther documents (including electronic communications,
videos, etc.) that you produce as evidence in this mali­
cious prosecution case are unaltered and authentic.
Admit or Deny?
RESPONSE: New Destiny admits it will not produce
documents in this action that are altered or unauthentic, unless the Federal Rules of Civil Procedure,
Federal Rules of Evidence, and/or the Local Rules of
the Middle District of Florida require or allow for such
alteration.

VERIFICATION OF RESPONSES TO PLAINTIFFS
REQUEST FOR ADMISSIONS

STATE OF___________
COUNTY OF FLORIDA
By:
Pastor Doug Shackelford, New
Destiny Christian Center Church

75a
Under penalty of perjury, Doug Shackelford, duly
sworn upon oath, deposes and says that the foregoing
responses to request for admissions are true and cor­
rect to the best of my knowledge and belief. The fore­
going instrument was acknowledged before me this
2016, by Doug Shackelford, who is
___day of
personally known to me or who has produced as iden­
tification and who did take an oath.
Notary Public
Printed Name of Notary
Commission No:
My Commission Expires:
CERTIFICATE OF SERVICE
I hereby certify that on September 9, 2016, a copy
of Defendant NEW DESTINY CHRISTIAN CENTER
CHURCH, INC., Response to Plaintiffs SHIRLEY JN
JOHNSON Verified First Request for Admissions was
electronically served via e-mail to: Eric Vincent Hires:
and
Eric@Hireslegal.com, Alicia@-HiresLegal.com
Erica K Williams: ewilhams@guideone.com, HMcCauley@guideone.com.
I further certify that a true and correct copy of the
foregoing has been furnished via U.S. Mail to:
Shirley Jn Johnson
P.O. Box -58818
Seattle, WA 98138
253/846-6805
Pro Se

76a
/s/ Richards H. Ford
Richards H. Ford, Esquire (Trial
Counsel)
Florida.Bar No. 288391
rford@wickersmith.com
Jennifer N. Yencarelli, Esquire
Florida Bar No. 0058020
jyencarelli@wickersmlth.com
WICKER, SMITH, O'HARA,
MCCOY & FORD, PA.
Post Office Box 2753
Orlando, FL 32802-2753
Phone: (407) 843-3939
Fax: (407) 649-8118
Attorneys for Defendants New Des­
tiny Christian Center Church, Inc.,
Paula Michelle Ministries, Inc., and
Paula Michelle White, and Resur­
rection Life THC, Inc.
VERTFCATION OF RESPONSES TO PLAINTIFFS
REQUEST FOR. ADMISSIONS
By: s/ Doug Shackelford
Pastor Doug Shackelford, New
Destiny Christian Center Church
STATE OF Florida
COUNTY OF FLORIDA Orange
Under penalty of perjury, Doug Shackelford, duly
sworn upon oath, deposes and says that the foregoing
responses to request for admissions are true and cor­
rect to the best of my knowledge and belief. The fore­
going Instrument was acknowledged before me this

77a
9 day of Sept, by Doug Shackelford, who is personally
known to me or who has produced as identification
and who did take an oath.
s/ Marguerite Esannason
Notary Public
Marguerite Esannason
Printed Name of Notary
Commission No: FF 947947
My Commission Expires:
1/30/2020
CERTIFCATE OF SERVICE
I hereby certify that on September 9, 2016, a copy
of Defendant NEW DESTINY CHRISTIAN CENTER
CHURCH, INC., Response to Plaintiffs SHIRLEY JN
JOHNSON Verified First Request for Admissions was
electronically served via e-mail to: Eric Vincent Hires:
Eric@Hireslegal.com, Alicia@Hires-legal.com and Eri­
ca K Williams: ewilliams@guide-one.com, HMc-Cauley
-@guideone.com

78a
APPENDIX F
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
SHIRLEY JN JOHNSON,
Plaintiff,
v.

CASE NO.
6:15-cv-1698-0rl-37GJK

NEW DESTINY CHRISTIAN CENTER
CHURCH, INC., PAULA MICHELLE
MINISTRIES, INC., PAULA
MICHELLE WHITE, and
RESURRECTION LIFE THC, INC.,
Defendants.
DEFENDANT PAULA MICHELLE WHITE’S
RESPONSE TO PLAINTIFF'S VERIFIED FIRST
REQUEST FOR ADMISSIONS
Defendant PAULA MICHELLE WHITE (“White”),
by and through the undersigned attorneys, and
pursuant to FED. R. CIV. P. 36, hereby responds to
Plaintiffs Verified First Request for Admissions dated
August 10, 2016 as follows:
First Set of Admissions, Request No. 1: You, your
rep re sentative (s) or employees visited and viewed
Plaintiffs YouTube channel and website (“websites”)
I

«IHT

rrgfe

79a
and personally saw copies of Paula White Ministries’
copyrighted videos, paid advertisements, merchan­
dise for sale to the public along with tools and technol­
ogy for forwarding copies of Paula White Ministries’
videos to social media providers such as Facebook, Instagram and Twitter, before seeking the advice of an
attorney to file a copyright infringement complaint on
behalf of Paula White Ministries. Admit or Deny?
RESPONSE: White admits that her representatives
or employees visited Plaintiffs YouTube channel and
website and saw copies of Paula White Ministries’
copyrighted videos and other content before the under­
lying copyright infringement lawsuit was filed by
Paula White Ministries. The remaining portions of
this Request are denied.
First Set of Admissions, Request No. 2: As incor­
porator and a director for Paula Michelle Ministries,
Inc. a/k/a Paula White Ministries, you read the copy­
right infringement complaint and was aware of the
allegations contained therein. Admit or Deny?
RESPONSE: White admits she read a draft of the
copyright infringement complaint and was aware of
the general allegations contained within the copyright
infringement complaint.
First Set of Admissions, Request No. 3: As Incor­
porator and a Director of Paula Michelle Ministries,
Inc. a/[k]/a Paula White Ministries, you verified the
accuracy of the allegations contained in the underly­
ing copyright infringement lawsuit. Admit or Deny?
RESPONSE: White did not verify the accuracy of the
allegations contained in the underlying copyright in­
fringement lawsuit and therefore denies this portion
of Plaintiffs request. White admits Paula White

80a
Ministries retained counsel in the underlying copyright
infringement action and relied on counsel to draft
allegations in accordance with facts surrounding the
underlying action.
First Set of Admissions, Request No. 4: You filed
or authorized the filing of the underlying copyright
infringement lawsuit. Admit or Deny?
RESPONSE: White denies she filed or authorized
the filing of the underlying copyright infringement
lawsuit.
First Set of Admissions, Request No. 5: The
underlying copyright infringement lawsuit was filed
as a personal vendetta, because as a public figure you
felt that you were being criticized, persecuted,
reproached and talked about. Admit or Deny?
RESPONSE: White denies the underlying copyright
infringement lawsuit was filed as a personal vendetta.
White admits she is a public figure and as such is
criticized and talked about.
First Set of Admissions, Request No. 6: You knew
the allegations against Plaintiff in the copyright
infringement complaint, were false. Admit or Deny?
RESPONSE: White denies she knew the allegations
against Ms. Johnson in the copyright Infringement
complaint were false.
First Set of Admissions, Request No. 7: You and
Mark Nejame of Nejame Law Firm are friends?
Admit or Deny?
RESPONSE: White admits she is friends with Mark
Nejame of the Nejame Law Firm.
First Set of Admissions, Request No. 8: Your
attorney who prosecuted the copyright infringement

81a
lawsuit aided you in preparing the allegations
contained in the copyright infringement complaint.
Admit or Deny?
RESPONSE: White did not prepare the allegations
contained within the copyright infringement com­
plaint and therefore denies this portion of Plaintiffs
Request. White admits Paula White Ministries re­
tained counsel in the underlying copyright infringe­
ment action and relied on counsel to draft the
allegations contained within the copyright Infringe­
ment complaint.
First Set of Admissions, Request No. 9: As
Incorporator and a director of Paula Michelle
Ministries, Inc. and president of the board of directors
for New Destiny Christian Center Church, Inc. you
had full control over the copyright infringement
litigation. Admit or Deny?
RESPONSE: White denies she had full control over
the copyright infringement litigation.
First Set of Admissions, Request No. 10: On June
22, 2012, (on behalf of Paula White Ministries) you, or
someone you authorized, applied for a copyright
registration/certificate which covered Paula White’s
sermons for the years 2010-2011. Admit or Deny?
RESPONSE: White admits Paula White Ministries
registered the Paula White Ministries Sermons 20102011 with the United States Copyright Office on June
22, 2012.
First Set of Admissions, Request No. 11: When
Paula White Ministries filed a copyright infringement
notification to YouTube against Plaintiffs channel on
February 6, 2012, you knew Paula White Ministries
did not have a valid copyright certificate/registration

82a
on file with the United States Copyright Office
(USCO) for any of Paula White’s sermons. Admit or
Deny?
RESPONSE: White admits Paula White Ministries
registered the Paula White Ministries Sermons 20102011 with the United States Copyright Office on June
22, 2012.
First Set of Admissions, Request No. 12: You are
president of New Destiny Christian Center Church,
Admit or Deny?
Inc.
RESPONSE: White admits she is President of New
Destiny Christian Center Church, Inc.
VERIFICATION OF RESPONSES TO PLAINTIFFS
REQUEST FOR, ADMISSIONS
By: s/Paula Michelle White
Paula Michelle White

STATE OF FLORIDA
COUNTY OF FLORIDA ORANGE
Under penalty of perjury, Paula Michelle White,
duly sworn upon oath, deposes and says that the fore­
going responses to request for admissions are true and
correct to the best of my knowledge and belief. The
foregoing instrument was acknowledged before me
this 9 day of Sept.. 2016, by Paula Michelle White,
who is personally known to me or who has produced
as identification and who did take an oath.
s/Marguerite Esannason
Notary Public
Marguerite Esannason
Printed Name of Notary

'

•VS(\NVvVWVVVVVVWV*
NMMyPaMeSiatternMtda
yf' Ma2£mn!*JanFF«i7M
E*t*ra*oiiaass20

Commission No: FF 947947
My Commission Expires: 1/30/2020

83a
CERTIFICATE OF SERVICE
I hereby certify that on September 9^, 2016, a
of
Defendant PAULA MICHELLE WHITE’S Recopy
sponse to Plaintiffs SHIRLEY JN JOHNSON Verified
First Request for Admissions was electronically served
via e-mail to: Eric Vincent Hires: Eric@Hireslegal.com, Alicia@HiresLegal.com and Erica K. Wil­
liams: ewilliams@guideone.com, HMcCauley@guideone.com.
I further certify that a true and correct copy of
the foregoing has been furnished via U.S. Mail to:
Shirley Jn Johnson
P.O. Box 58818
Seattle, WA 98138
253/846-6805
Pro se
/s/ Richards H. Ford
Richards H. Ford, Esquire (Trial
Counsel)
Florida Bar No. 288391
rford@wickersmith.com
Jennifer N. Yencarelli, Esquire
Florida Bar No. 0058020
jyencarelli@wickersmith.com
WICKER, SMITH, O'HARA,
MCCOY & FORD, P.A.
Post Office Box 2753
Orlando, FL 32802-2753
Phone: (407) 843-3939
Fax: (407) 649-8118
Attorneys for Defendants New Destiny
Christian Center Church, Inc., Paula
Michelle Ministries, Inc., and Resurrec­
tion Life THC, Inc

84a
APPENDIX G
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
SHIRLEY JN JOHNSON,
Plaintiff,
CASE NO.
6:15-cv- 1698-Orl-37 GJK

v.

NEW DESTINY CHRISTIAN CENTER
CHURCH, INC., PAULA MICHELLE
MINISTRES, INC., PAULA MICHELLE
WHITE, and RESURRECTION LIFE
THC, INC.,
Defendants.
DEFENDANT PAULA MICHELLE MINISTRIES,
INC.’S RESPONSE TO PLAINTIFFS VERIFIED
FTRST REQUEST FOR ADMISSIONS
Defendant PAULA MICHELLE MINISTRIES,
INC. (“PMM1”), by and through the Undersigned
attorneys, and pursuant to FED. R. CIV. P. 36, hereby
responds to Plaintiffs Verified First Request for Ad­
missions dated August 10, 2016 as follows:
First Set of Admissions, Request No. 1: You (a/k/a
Paula White Ministries), your representatives, agents,
I

JOINT

bes

85a
or employees visited Plaintiffs YouTube channel and
website (“websites”) and saw copies of Paula White
Ministries’ copyrighted videos, paid advertisements,
merchandise offered for sale, and instructions for for­
warding copies of Paula White Ministries’ videos to
Facebook, Instagram and Twitter before seeking the
advice of an attorney to file a copyright infringement
complaint. Admit or Deny?
RESPONSE: PMMI admits that it visited Plaintiffs
YouTube channel and website and saw copies of Paula
White Ministries’ copyrighted videos and other con­
tent before the underlying copyright infringement
lawsuit was filed by Paula White Ministries. The re­
maining portions of this Request are denied.
First Set of Admissions, Request No.2: When con­
sulting with your attorney, you (a/[k]/a Paula White
Ministries), your representatives, agents or employ­
ees, made a full and fair disclosure of all material
Admit
facts regarding Plaintiff and her (“websites”),
or Deny?
RESPONSE: Objection to the extent the Request
seeks attorney-client privileged communication. Oth­
erwise, the Request is denied.
First Set of Admissions, Request No. 3: Your
attorney who prosecuted the copyright action aided
you (a/[k]/a Paula White Ministries), your representa­
tives or employees in preparing your allegations con­
tained in the copyright complaint. Admit or Deny?
RESPONSE: PMMI did not prepare the allegations
contained within the copyright infringement com­
plaint and was not a party to the underlying copyright
infringement lawsuit; therefore, PMMI denies this
portion of Plaintiffs request PMMI admits Paula

86a
White Ministries retained counsel to draft the allega­
tions contained within the copyright infringement
complaint in accordance with applicable law.
First Set of Admissions, Request No. 4: You (a/k/a
Paula White Ministries), your representatives, agents
or employees knew that the allegations in the copy­
right infringement complaint were false. Admit or
Deny?
RESPONSE: Denied that New Destiny Church/Paula
White Ministries knew the allegations in the copyright
infringement complaint were false.
First Set of Admissions, Request No. 5: When
Paula White Ministries filed the copyright infringe­
ment notification with YouTube against Plaintiff on
February 6, 2012, Paula White Ministries did not have
a valid copyright certificate/registration on file with
the United states Copyright Office (USCO) for any of
Paula White’s sermons. Admit or Deny?
RESPONSE: PMMI admits Paula White Ministries
registered the Paula White Ministries Sermons 2010
-2011 with the United States Copyright Office on June
22, 2012.
First Set of Admissions, Request No. 6: On June
22, 2012, Paula White Ministries applied for a copy­
right registration which covers Paula White’s sermons
from 2010 - 2011. Admit or Deny?
RESPONSE: PMMI admits Paula White Ministries
registered the Paula White Ministries sermons 20102011 with the United States Copyright Office on June
22, 2012.
First Set of Admissions, Request No. 7: Every responsein your Amended Answer and Affirmative

87a
defenses (Doc. 48) to this malicious prosecution action
was true. Admit or Deny?
RESPONSE: PMMI objects to this request to the ex­
tent it calls for a legal conclusion regarding the viabil­
ity of its affirmative defenses. PMMI admits all responses and affirmative defenses asserted in its
Answer and Affirmative Defenses have merit.
First Set of Admissions, Request No. 8: Every
answer you stated in your “Amended Answers to
Plaintiffs First Set of Interrogatories” in this mali­
cious prosecution action was true. Admit or Deny?
RESPONSE: PMMI admits it truthfully answered
Plaintiffs First Set of Interrogatories in this malicious
prosecution action.
First Set of Admissions, Request No. 9: Before,
your dissolution, you sold religious books, CDs, DVDs,
and/or other items via the Paula White Ministries
Admit or Deny?
website.
RESPONSE: PMMI admits before its dissolution, it
you sold religious books, CDs, DVDs, and/or other
items via the Paula White Ministries website.
VERIFICATION OF RESPONSES TO PLAINTIFFS
REQUEST FOR ADMISSIONS
By: s/Doug Shackelford___________
Doug Shackelford Representative
of Paula White Ministries, Inc.

STATE OF FLORIDA
COUNTY OF FLORIDA ORANGE
Under penalty of perjury, Doug Shackelford, duly
sworn upon oath, deposes and says that the foregoing

88a
responses to request for admissions are true and cor­
rect to the best of my knowledge and belief. The fore­
going Instrument was acknowledged before me this 9
day of Sent.. 2016, by Doug Shackelford, who is
personally known to me or who has produced as iden­
tification and who did take an oath.
s/Marguerite Esannason
Notary Public
MARGUERITE ESANNASON
Printed Name of Notary
Commission No. FF 947947
My Commission Expires: 1/30/2020
I hereby certify that on September 9,2016, a copy
of Defendant PAULA MICHELLE MINISTRIES,
INC,’S Response to Plaintiffs SHIRLEY JN JOHN­
SON Verified First Request for Admissions was elec­
tronically served via e-mail to: Eric Vincent Hires: Eric@Hireslegal.com, Alicia@Hires-legal.com and Erica
K. Williams: Ewilliams@guide-one.com, HMcCauley@guideone. com.
I further certify that a true and correct copy of the
foregoing has been furnished via U.S. Mail to:

Shirley Jn Johnson
P.O. Box 58818
Seattle, WA 98138
253/846-6805
Pro Se

89a
s/Richards H. Ford
Richards H. Ford, Esquire (Trial
Counsel)
Florida Bar No. 288391
rford@wickersmith.com
Jennifer N. Yencarelli, Esquire
Florida Bar No. 0058020
jyencarelli@wickerersmith.com
WICKER, SMITH, O’HARA,
MCCOY & FORD, P.A.
Post Office Box 2753
Orlando, FL 32802-2753
Phone: (407) 843-3939
Fax: (407) 649-8118
Attorneys for Defendants New Des­
tiny Christian Center Church, Inc.,
Paula Michelle Ministries, Inc., and
Paula Michele White, and Resur­
rection Life THC, Inc.

90a
APPENDIX H
Case 6:14-cv-00497-GAP-DAB
Document 1 Filed 03/27/14
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
CASE NO.
6:14-CV-497-Orl-31DAB
PAULA WHITE MINISTRIES
Plaintiff,
v.
SHIRLEY JN JOHNSON
Defendant.

Paula White Ministries, by and through its under­
signed counsel, for its Complaint against Defendant
Shirley Jn Johnson states and alleges as follows:
INTRODUCTION
1. Plaintiff, Paula White Ministries, is a global
ministry in both vision and reach. Utilizing
the Internet, Television, Radio, Literature,
and Public Speaking as its primary vehicles
of communication. It is guided by the Godinspired vision of Paula White who founded it
with a strong desire to see lives transformed
t

JOINT

ijel

91a
for the better through relationship with God.
2. Defendant operates a You Tube channel
“theremnantsjnj” and a web-site known as
http ://www .theremnantsj nj .com/(collectively
referred to herein as the “Websites”) and
without permission or authorization from
Plaintiff copied, modified, and displayed
Plaintiffs photograph(s) and videos on the
Websites and engaged in the misconduct
knowingly in violation of the United States
copyright laws.
JURISDICTION AND VENUE
3. This Court has subject matter jurisdiction
over the federal copyright infringement
claims pursuant to 28 U.S.C. § 1338(a) and
28 U.S.C. § 1331. The Court has supple­
mental jurisdiction over the claims arising
under state law pursuant to 28 U.S.C. §1367
(a) in that the state claims are so related to
the claims over which the court has original
jurisdiction that they form part of the same
case or controversy. Additionally this court
has subject matter jurisdiction over all of the
videos, inclusive of the unregistered images.
(See e.g. Perfect 10, Inc. v. Amazon.com, Inc.,
508 F. 3d 1146, 1154 [9th Cir. 2007];
Olan Mills, Inc. v. Linn Photo Co., 23 F.3d
1345, 1349 [8th Cir 1994]; Pac. & S. Co.,
Inc., v. Duncan, 744 F.2d 1490, 1499 n. 17
[11th Cir 1984],
4. This court has jurisdiction over the Defend­
ant because she purposely directs sub­
stantial activities at the residents of Florida

92a
by means of the website described herein.
This court also has personal jurisdiction over
the Defendant under the applicable longarm jurisdiction statutes of Florida. See e.g.
Internet Solutions Corporation v. Marshall,
39 So. 3d 1201 (Fla. 2010).
5. Venue is proper under 28 U.S.C. §1391(a)(2)
because Paula White Ministries does
business in this Judicial District, and/or
because a substantial part of the events or
omissions giving rise to the claim occurred
in this Judicial District.
PARTIES
6. Paula White Ministries maintains its princi­
pal place of business in Orange County,
Florida.
7. Shirley Jn Johnson is an individual over the
age of 18 and is liable and responsible to
Plaintiff based upon the facts herein alleged.
FACTUAL ALLEGATIONS
8. Plaintiff is the legal and beneficial owner of
a multitude of photographs and videos and
has invested significant time and money in
building its video portfolios.
9. Plaintiff has obtained several active and
valid copyright registrations with the United
States Copyright Office (the “USCO”), which
registrations cover many of its videos and
many others are the subject of pending
copyright applications.
10. Plaintiffs photographs and videos are origi­
nal creative works in which Plaintiff owns

93a
protectable copyright interest.
11. Defendant is the registered owner of the
Websites and is responsible for its content.
12. The Websites are monetized in that they
contain paid advertisement and/or sell
merchandise to the public and, on
information and belief, Defendant profits
from these activities.
13. Without permission or authorization from
Plaintiff, Defendant copied, modified, and/
or displayed Plaintiff rights protected
videos (hereinafter collectively referred to
as “Videos”), as set forth in Exhibit “1”
which is annexed hereto and incorporated
in its entirety herein, on the Websites.
14. On information and belief the videos were
copied without license or permission, thereby
infringing on the Copyrights (hereinafter
collectively referred to as the “Infringe­
ment s)”).
15. As is set forth more fully in Exhibit 1,
each listed infringement contains the
URL (“Uniform Resource Locator”) for a
fixed tangible medium of expression that
was sufficiently permanent or stable to
permit it to be communicated for a period
of more than transitory duration and
constitutes a specific item of infringement.
(See 17 U.S. C. §106(5); Perfect 10, Inc. v.
Amazon.com, Inc., 508 F.3d 1146, 1160
[9th Cir. 2007]).
16. On information and belief, Defendant was
aware of facts or circumstances from

94a
which the determination regarding the
Infringement was apparent. Based on the
totality of the circumstances, Defendant
cannot claim that she was not aware of
the infringing activities, including specific
Infringements, which form the basis of
this Complaint, on the Website since such
a claim would amount only willful blind­
ness to the Infringement on the part of
the Defendant.
17. On information and belief, Defendant
engaged in the Infringement knowing and
in violation of applicable United States
Copyright Laws.
18. Additionally, on information and belief,
Defendant, with “red flag” knowledge of
the Infringement, failed to promptly
remove same. (See 17 U.S.C. §512(c)(1)(A)
(i))19. On information and belief, Defendant has
received a financial benefit directly attrib­
utable to the Infringement. Specifically,
by way of the Infringement, the Websites
had increased traffic. (See 17 U.S.C. §512
(c)(1)(B)).
20. As a result of Defendant’s misconduct,
Plaintiff has been substantially harmed.
FIRST COUNT
(Direct Copyright Infringement, 17 U.S.C §501 et seq)
21. Plaintiff repeats and incorporates by
reference the allegations contained in
the preceding paragraphs numbered 1 20 as if set forth in full herein.

95a
22.

23.

The Videos are original, creative works in
which Plaintiff owns protectable copyright
interests.
Plaintiff has not licensed Defendant the
right to use the Videos in any manner, nor
has Plaintiff assigned any of its exclusive
rights in the Copyrights to Defendant.

24.

Without permission or authorization from
Plaintiff and in willful violation of its
rights under 17 U.S.C. 106, defendant im­
properly and illegally copied, reproduced,
distributed, adapted, and/or publically dis­
played works copyrighted by Plaintiff.

25.

Defendant’s reproduction of the Videos
and display of the Videos on the Website
constitutes willful copyright infringement.

26.

On information and belief, thousands of
people have viewed the unlawful copies of
the Videos on the Website.
On information and belief, Defendant had
knowledge of the copyright infringement
alleged herein and had the ability to stop
the reproduction and display of Plaintiffs
copyrighted material.
As a direct and proximate result of
Defendant's misconduct, Plaintiff has been
substantially harmed in an amount to be
proven at trial.

27.

28.

SECOND COUNT
Contributory Copyright Infringement
29.

Plaintiff incorporates, as though fully set
forth herein, each and every allegation

96a

30.

31.

32.

33.

contained in the preceding paragraphs,
numbered 1 - 20, as though set forth in
full herein.
In the event that the Videos were
hyperlinked into the Website, and thereby
not stored directly on the Defendant
servers, Defendant is liable as contribu­
tory infringers since she had actual and/or
constructive knowledge of another’s
infringing conduct and induced, caused
and/or materially contributed to that
conduct.
For example, Defendant has caused,
enabled, facilitated and materially con­
tributed to the infringement complained of
herein by, providing the tools and
instruction for infringement via her
Website and has directly and indirectly
promoted the infringement and refused to
exercise her ability to stop the infringe­
ment made possible by their distribution.
Defendant’s infringement is and has been
willful, intentional, purposeful, and in
disregard of the rights of Plaintiff, and
has caused substantial damage to Plain­
tiff.
As a direct and proximate result of Defen­
dant’s misconduct, Plaintiff has been sub­
stantially harmed in an amount to be
proven at trial.

THIRD COUNT
Inducement of Copyright Infringement
34.

Plaintiff incorporates, as though fully set

97a

35.

36.

37.

forth herein, each and every allegation
contained in the preceding paragraphs,
numbered 1 - 20, as though set forth in
full herein.
Defendant has induced and continued to
induce infringement by, for example,
providing technology on the Website to
download and/or forward a copy to such
social media providers such as Facebook,
Instagram, and Twitter and/or failing to
block or diminish access to infringing
material even though there are technolog­
ical means to do so that are known to the
Defendant.
Defendant’s infringement is and has been
willful, intentional, purposeful and in
disregard of the rights of Plaintiff, and
has caused substantial damage to Plain­
tiff.
As a direct and proximate result of Defen­
dant’s infringement, Plaintiff has been
substantially harmed in an amount to be
proven at trial.

THIRD COUNT
Injunction Pursuant to 17 U.S.C. §502
38. Plaintiff incorporates, as though fully set
forth herein, each and every allegation
contained in the preceding paragraphs,
numbered 1 - 20, as though set forth in
full herein.
39. Plaintiff requests a permanent injunction
pursuant to 17 U.S.C. §502(a) prohibiting
Defendant from displaying the

98a
Infringements.
FOURTH COUNT
Attorney Fees and Costs Pursuant to 17 U.S.C. §505
40.

Plaintiff incorporates, as though fully set
forth herein, each and every allegation
contained in the preceding paragraphs,
numbered 1 - 20, as though set forth in
full herein.

41.

Plaintiff requests, pursuant to 17 U.S.C.
§505, its attorney fees and costs for the
prosecution of this action.
PRAYER FOR RELIEF

WHEREFORE, Plaintiff respectfully requests judg­
ment as follows:
1. That the Court enter a judgment finding that
Defendant has infringed directly, contributory and/or
vicariously as well has induced others to violate Plain­
tiffs rights to the Infringements in violation of 17
U.S.C. §501 et seq and award damages and monetary
relief as follows:
a. Statutory damages against Defendant pur­
suant to 17 U.S.C. §504(c) of $150,000 per infringe­
ment or in the alternative Plaintiffs actual damages
and the disgorgement of Defendant’s wrongful profits
in an amount to be proven at trial; and
b. A permanent injunction against Defendant
pursuant to 17 U.S.C. §502; and
c. Plaintiffs attorney’s fees pursuant to 17
U.S.C. §505; and
d. Plaintiffs costs; and

99a
2. Such other relief that the Court determines is
just and proper.
Dated March 25, 2014
By: s/ Thomas A. Sadaka
Thomas A. Sadaka
Fla. Bar No. 0915890
tom@neiamelaw.com
NeJame Law
189 S. Orange Avenue, Suite 1800
Orlando, FL 32801
Phone: 407-245-1232
Fax: 407-245-2980

100a
APPENDIX I
Case 6:14-cv-00337-GAP-KRS
Document 1 Filed 02/28/14
SANDERS LAW, PLLC
Craig B. Sanders, Esq. (985688)
100 Garden City Plaza, Suite 500
Garden City, New York 11530
Telephone: (516) 203-7600
Facsimile: (516) 281-7601
csanders@sanderslawpllc.com
Attorneys for Plaintiff
file No.: 1040S9
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
BWP Media USA Inc.
d/b/a Pacific Coast News,

6:14-CV 337-ORL-31LRS
Docket No:

Plaintiff(s),
vs.

COMPLAINT
JURY TRIAL DEMANDED

All Access Fans. Inc.,
Defendant(s).
BWP Media USA Inc. d/b/a Pacific Coast News
(“BWP”) (hereinafter collectively “Plaintiff(s)”) by and
through its undersigned counsel, for their Complaint
II

PUfKTIFFS

1

MM

101a
against Defendants All Access Fans, Inc. (hereinafter
collectively referred to as Defendants)”) states and
alleges as follows:
INTRODUCTION
1. Plaintiff(s) provide entertainment-related
photojournalism goods and services and own the
rights to a multitude of photographs featuring celebri­
ties, which it licenses to online and print publications.
Plaintiffs) have obtained U.S. copyright registrations
covering many of its photographs, and others are the
subject of pending copyright applications.
2. Defendant(s) own and operate a website known
as www.allaccessfans.com (the website(s) are collect­
ively referred to herein as the “Websites”) and without
permission or authorization from Plaintiffs) copied,
modified, and displayed Plaintiffs)’ photographs(s)
on the Websites and engaged in this misconduct
knowingly and in violation of the United States
copyright laws.
JURISDICTION AND VENUE
3. This Court has subject matter jurisdiction over
the federal copyright infringement claims pursuant to
28 U.S.C. § 1338(a) and 28 U.S.C. § 1331. The Court
has supplemental jurisdiction over the claims arising
under state law pursuant to 28 U.S.C. § 1367(a) in
that the state claims are so related to the claims over
which the court has original jurisdiction that they
form part of the same case or controversy, Additionally, this Court has subject matter jurisdiction
over all of the photographs, inclusive of the
unregistered images. (See e.g. Perfect 10, Inc. v.
Amazon.com, Inc., 508 F. 3d 1146,1154 [9th Cir. 2007];
Olan Mills, Inc. v. Linn Photo Co. 23 F. 3d 1345,

102a
1349 [8th Cir. 1994]; Pac. & S. Co., Inc. v. Duncan,
744 F. 2d 1490, 1499 m.17 [11th Cir. 1984]).
4. This Court has personal jurisdiction over All
Access Fans, Inc. because All Access Fans, Inc.
maintains its principal place of business in Florida
and purposely directs substantial activities at the
residents of Florida by means of the website described
herein. This Court also has personal jurisdiction over
the Defendant(s) under the applicable long-arm juris­
dictional statutes of Florida.
5. Venue is proper under 28 U.S.C. §1391(a)(2)
because All Access Fans, Inc. does business in this
Judicial District and/or because a substantial part of
the events or omissions giving rise to the claim
occurred in this Judicial District.
PARTIES
6. BWP is a California Corporation and maintains
its principal place of business in Los Angeles County,
California.
7. On information and belief, Defendant All Access
Fans, Inc., is a Florida Corporation with a principal
place of business in OSCEOLA County, Florida and is
liable and responsible to Plaintiff based on the facts
herein alleged.
FACTUAL ALLEGATIONS
8. Plaint,iff(s) are the legal and beneficial owners
of a multitude of photographs which they license to
online and print publications and have invested
significant time and money in building their
photograph portfolios.

103a
9. Plaintiff(s) have obtained several active and
valid copyright registrations with the United States
Copyright Office (the “USCO”), which registrations
cover many of their photographs and many others are
the subject of pending copyright applications.
10. Plaintiff(s)’ photographs are original, creative
works in which Plaintiffs own protectable copyright
interests.
11. Defendant(s) are the registered owner of the
Websites and are responsible for their content.
12. The Websites are monetized in that they con­
tain paid advertisements and/or sell merchandise to
the public and, on information and behef, Defendant(s)
profit from these activities.
13. Without permission or authorization from Plain­
tiffs), Defendant(s) copied, modified, and/or displayed
Plaintiffs) rights protected photographs (hereinafter
collectively referred to as “Photograph(s)”) as set forth
in Exhibit “1” which is annexed hereto and incorpo­
rated in its entirety herein, on the Websites.
14. On information and belief, the Photograph(s)
were copied without license or permission, thereby in­
fringing on the Copyrights (hereinafter collectively re­
ferred to as the “Infringements)”).
15. As is set forth more fully in Exhibit “1”, each
listed infringement contains the URL (“Uniform Re­
source Locator”) for a fixed tangible medium of expres­
sion that was sufficiently permanent or stable to per­
mit it to be communicated for a period of more than
transitory duration and constitutes a specific item of
infringement. (See 17 U.S.C. §106(5); Perfect 10. Inc. v.
Amazon.com, Inc. 508 F. 3d 1146, 1160 [9th Cir.

104a
2007]).
16. On information and belief, Defendant(s) were
aware of facts or circumstances from which the
determination regarding the Infringement(s) was
apparent. Based on the totality of the circumstances,
Defendant(s) cannot claim that they were not aware of
the infringing activities, including the specific In­
fringements) which form the basis of this complaint,
on the Website (s) since such a claim would amount to
only willful blindness to the Infringement(s) on the
part of Defendant(s).
17. On information and belief, Defendant(s) en­
gaged in the Infringement(s) knowingly and in viola­
tion of applicable United States Copyright Laws.
18. Additionally, on information and belief, Defen­
dants), with “red flag” knowledge of the infringe­
ments failed to promptly remove same. (See 17 U.S.C.
§512(c)(l)(A)(i)).
19. On information and belief, Defendant(s) have
received a financial benefit directly attributable to the
Infringement(s). Specifically, by way of the Infringe­
ments), the Websites had increased traffic to the and,
in turn, realized an increase their advertising reve­
nues and/or merchandise sales. (See 17 U.S.C. §512(c)
(1)(B)).
20. As a result of Defendant(s)’ misconduct, Plaint­
iffs) have been substantially harmed.
FIRST COUNT
(Direct Infringement, 17 U.S.C. §501 et seq.)
21. Plaintiffs) repeat and incorporate by

105a
reference the allegations contained in the preceding
paragraphs, as though set forth in full herein.
22. The Photograph(s) are original, creative works
in which Plaintiff(s) own protectable copyright
interests.
23. Plaintiff(s) have not licensed Defendant(s) the
right to use the Photograph(s) in any manner, nor
have Plaintiff(s) assigned any of its exclusive rights in
the Copyrights to Defendant(s).
24. Without permission or authorization from
Plaintiff(s) and in willful violation of their rights un­
der 17 U.S.C. §106, Defendant(s) improperly and ille­
gally copied, reproduced, distributed, adapted, and/
or publicly displayed works copyrighted by Plaintiff.
25. Defendant(s)’ reproduction of the Photograph(s)
and display of the Photograph(s) on the Website(s)
constitutes willful copyright infringement.
26. On information and belief, thousands of people
have viewed the unlawful copies of the Photograph(s)
on the Web site (s).
27. On information and belief, Defendant(s) had
knowledge of the copyright infringement alleged
herein and had the ability to stop the reproduction
and display of Plaintiff(s)’ copyrighted material.
28. As a direct and proximate result of De­
fendant^)’ misconduct Plaintiff(s) have been substan­
tially harmed in an amount to be proven at trial.
29. Plaintiff(s) incorporate, as though fully set forth
herein, each and every allegation contained in the
preceding paragraphs, as though set forth in full here­
in.

106a
SECOND COUNT
(Contributory Copyright Infringement)
30. In the event that the Photograph(s) were
hyperlinked into the Website(s), and thereby not
stored directly on the Defendant(s) servers, Defend­
ants) are liable as contributory infringers since they
had actual and/or constructive knowledge of another’s
infringing conduct and induced caused and/or materi­
ally contributed to that conduct. (See e.g., Perfect 10,
Inc. v. Amazon.com Inc., 508 F.3d. 1146, 1171 [9th
Cir. 2007]; Metro-Goldwyn-Mayer Studios Inc. v.
Grokster, Ltd, 545 U.S. 913, 929-30 [2005); A&M
Records, Inc. v. Napster, Inc. 239 F.3d 1004, 1019 [9th
Cir. 2001]; Sony Corp. v. Universal City Studios, Inc.,
464 U.S. 417 [1984)).
31. For example, Defendant(s) have caused
enabled, facilitated and materially contributed to the
infringement complained of herein by, providing the
tools and instruction for infringement via their Website(s) and have directly and indirectly promoted the
infringement and refused to exercise their ability to
stop the infringement made possible by their distribu­
tion.
32. Defendants’ infringement is and has been
willful, intentional, purposeful, and in disregard of the
rights of Plaintiffs, and has caused substantial dam­
age to Plaintiffs.
33. As a direct and proximate result of Defen­
dant^)’ misconduct. Plaintiff(s) have been substant­
ially harmed in an amount to be proven at trial.
THIRD COUNT
(Vicarious Copyright Infringement)
34. Plaintiff(s) incorporate, as though fully

107a
set forth herein, each and every allegation contained
in the preceding paragraphs, as though set forth in
full herein.
35. Defendant(s) enjoyed a direct financial benefit
from the infringing activity of its users and declined to
exercise the right and ability to supervise or control
that infringing activity, despite their legal right to
stop or limit the directly infringing conduct as well as
the practical ability to do so.
36. Accordingly, Defendant(s) are liable as vicar­
ious infringers since they profited from direct
infringement while declining to exercise a right to stop
or limit it. (See e.g., Perfect 10, Inc. v. Amazon.com,
Inc., 508 F.3d. 1146, 1171 [9th Cir. 2007]; MetroGoldwyn-Mayer Studios Inc. u. Grokster, Ltd, 545 U.S.
913, 929-30 (2005]).
37. As a result of Defendant(s)’ misconduct, Plaintiff(s) have been substantially harmed in an amount
to be proven at trial.
FOURTH COUNT
(Inducement of Copyright Infringement)
38. Individuals using the Websites that Defendant^)’
created, distributed and promoted, have been provided
with the means and mechanisms through such Web­
sites to directly infringe and are directly infringing
Plaintiffs)’ copyrights, by, for example, creating
unauthorized reproductions of Plaintiffs)’ copyrighted
works and distributing copies of such works in
violation of Plaintiffs)’ exclusive rights (17 U.S.C
§§106 and 501).
39. Defendant(s) have induced and continue to
induce infringement by, for example, providing tech­
nology on the Websites to download and/or forward an

108a
image to such social media providers such as Facebook, Instagram, and Twitter and/or failing to
block or diminish access to infringing material
even though there are technological means to do so
that are known to Defendant(s).
40. Defendant(s)’ infringement is and has been
willful, intentional, purposeful and in disregard of the
rights of Plaintiffs)), arid has caused substantial
damage to Plaintiffs).
41. As a direct and proximate result of Defend­
ant^)’ infringement, Plaintiffs) have been substan­
tially harmed in an amount to be proven at trial.
FIFTTH COUNT
(Injunction Pursuant 17 U.S.C. §502)
42. Plaintiffs) incorporate, as though fully set
forth herein, each and every allegation contained in
the preceding paragraphs, as though set forth in full
herein.
43. Plaintiffs) request a permanent injunction
pursuant to 17 U.S.C. §502(a) prohibiting Defendants
from displaying the Infringements.
SIXTH COUNT
(Attorney Fees and Costs Pursuant to 17 U.S.C. §505)
44. Plaintiffs) incorporate, as though fully set
forth herein, each and every allegation contained in
the preceding paragraphs, as though set forth in full
herein.
45. Plaintiffs) request, pursuant to 17 U.S.C.
§505, their attorney fees and costs for the prosecution
of this action.
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs) respectfully requests

109a
judgment as follows:
1. That the Court enter a judgment finding that
Defendants have infringed directly, contributorily
and/or vicariously as well have induced other to
violation Plaintiffs)’ rights to the Photograph(s) in
violation of 17 U.S.C. §501 et sea, and award damages
and monetary relief as follows:
a.

Statutory damages against Defendant(s)
pursuant to 17 U.S.C. §504(c) of $150,000
per infringement or in the alternative
Plaintiffs)’ actual damages and the
disgorgement of Defendant(s)’ wrongful pro­
fits in an amount to be proven at trial; and

b. A permanent injunction against Defend­
ants pursuant to 17 U.S.C. §502; and
c.

Plaintiffs)’ attorneys’ fees pursuant to 17
U.S.C. §505; and

d. Plaintiffs)’ costs; and
2. Such other relief that the Court determines is
just and proper.
DATED: February 11, 2014
SANDERS LAW, PLLC
s/CraisB. Sanders
Craig B. Sanders, Esq. (985686)
100 Garden City Plaza, Suite 500
Garden City, New York 11530
Telephone: (516) 203-7600
Facsimile: (516) 281-7601
csanders@sanderslawpllc.com
Attorneys for Plaintiff
File No.: 104059

110a
REQUEST FOR JURY TRIAL
Plaintiff hereby demands a trial of this action by
jury.

DATED: February 11, 2014
SANDERS LAW, PLLC
s / Craig B. Sanders
Craig B. Sanders, Esq. (985686)
100 Garden City Plaza, Suite 500
Garden City, New York 11530
Telephone: (516) 203-7600
Facsimile: (516) 281-7601
csanders@sanderslawpllc.com
Attorneys for Plaintiff
File No.: 104059

111a
APPENDIX J
Constitutional Provisions Involved
United States Constitution - Amendment XIV
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without
due process of law; nor deny any person within its
jurisdiction the equal protection of the laws.
Federal Statutes Involved
18 U.S.C. § 1503 (a) (Chapter 73)
18 USC §1503: Influencing or injuring officer or
juror generally
(a) Whoever corruptly, or by threats or force, or by any
threatening letter or communication, endeavors to in­
fluence, intimidate, or impede any grand or petit
juror, or officer in or of any court of the United States,
or officer who may be serving at any examination or
other proceeding before any United States magistrate
judge or other committing magistrate, in the discharge
of his duty, or injures any such grand or petit juror
in his person or property on account of any verdict or
indictment assented to by him, or on account of his
being or having been such juror, or injures any such
officer, magistrate judge, or other committing
magistrate in his person or property on account of the
performance of his official duties, or corruptly or by
threats or force, or by any threatening letter or

112a
communication, influences, obstructs, or impedes, or
endeavors to influence, obstruct, or impede the due
administration of justice, shall be punished as
provided in subsection (b). If the offense under this
section occurs in connection with a trial of a criminal
case, and the act in violation of this section involves
the threat of physical force or physical force, the
maximum term of imprisonment which may be
imposed for the offense shall be the higher of that
otherwise provided by law or the maximum term that
could have been imposed for any offense charged in
such case.
28 U.S.C. § 453
28 U.S.C. § 453: Oaths of justices and judges
Each justice or judge of the United States shall
take the following oath or affirmation before
do
performing the duties of his office: “I,
solemnly swear (or affirm) that I will administer
justice without respect to persons, and do equal right
to the poor and to the rich, and that I will faithfully
and impartially discharge and perform all the duties
under the Constitution
incumbent upon me as
and laws of the United States. So help me God.”
28 U.S.C. § 455 (a) and (b) (1)
28 U.S.C. § 455: Disqualification of justice, judge,
or magistrate judge
(a) Any justice, judge, or magistrate judge of
the United States shall disqualify himself in any
proceeding in which his impartiality might reasonably
be questioned.
(b) He shall also disqualify himself in the following
circumstances:

113a
(1) Where he has a personal bias or prejudice
concerning a party, or personal knowledge of disputed
evidentiary facts concerning the proceeding;
Florida Statutes Involved
Title XLV Chapter 768.73 (1) (c)
768.73 Punitive Damages’ Limitations; —
(l)(c) Where the fact finder determines that at the
time of injury the defendant had a specific intent to
harm the claimant and determines that the defen­
dant’s conduct did in fact harm the claimant, there
shall be no cap on punitive damages.
Title XLV Chapter 768.72 (2)
768.72 Pleading in civil actions; claim for
punitive damages.
(2) A defendant may be held liable for punitive
damages only if the trier of fact, based on clear and
convincing evidence, finds that the defendant was
personally guilty of intentional misconduct or gross
negligence. As used in this section, the term:
(a) “Intentional misconduct” means that the
defendant had actual knowledge of the wrongfulness
of the conduct and the high probability that injury or
damage to the claimant would result and, despite that
knowledge, intentionally pursued that course of cond­
uct, resulting in injury or damage.
(b) “Gross negligence” means that the defend­
ant’s conduct was so reckless or wanting in care that it
constituted a conscious disregard or indifference to the
life, safety, or rights of persons exposed to such con­
duct.
(3) In the case of an employer, principal,
corporation, or other legal entity, punitive damages

114a
may be imposed for the conduct of an employee or
agent only if the conduct of the employee or agent
meets the criteria specified in subsection (2) and:
(a) The employer, principal, corporation, or
other legal entity actively and knowingly participated
in such conduct;
(b) The officers, directors, or managers of the
employer, principal, corporation, or other legal entity
knowingly condoned, ratified, or consented to such
conduct; or
(c) The employer, principal, corporation, or
other legal entity engaged in conduct that constituted
gross negligence and that contributed to the loss,
damages, or injury suffered by the claimant.
(4) The provisions of this section shall be applied
to all causes of action arising after the effective date of
this act.
History.—s. 51, ch. 86-160; s. 1172, ch. 97-102; s. 22,
ch. 99-225.
768.725 Punitive damages; burden of proof.—In
all civil actions, the plaintiff must establish at trial, by
clear and convincing evidence, its entitlement to an
award of punitive damages. The “greater weight of the
evidence” burden of proof applies to a determination of
the amount of damages.
Federal Rules of Civil Procedure Involved
Fed. R. Civ. P 17 (a) (1)
Rule 17. Plaintiff and Defendant; Capacity;
Public Officers
(a) Real Party in Interest.
(1) Designation in General. An action must be

115a
prosecuted in the name of the real party in interest.
The following may sue in their own names without
joining the person for whose benefit the action is
brought:
Other Relevant Provisions Involved
Ch. 2: Code of Conduct for United States Judges
Canon 3: A Judge Should Perform the Duties of the
Office Fairly, Impartially and Diligently
The duties of judicial office take precedence over
all other activities. The judge should perform those
duties with respect for others, and should not engage
in behavior that is harassing, abusive, prejudiced, or
biased. The judge should adhere to the following
standards:
A.

Adjudicative Responsibilities.
(1) A judge should be faithful to, and main­
tain professional competence in, the law
and should not be swayed by partisan in­
terests, public clamor, or fear of criticism.
(2)

A judge should hear and decide matters
assigned, unless disqualified, and should
maintain order and decorum in all judi
cial proceedings.
(3) A judge should be patient, dignified,
respectful, and courteous to litigants,
jurors, witnesses, lawyers, and others
with whom the judge deals in an official
capacity. A judge should require similar
conduct by those subject to the judge’s
control, including lawyers to the extent
consistent with their role in the adver­
sary process.

116a
Canon 2:

A Judge Should Avoid Impropriety
and the Appearance of Impropriety in all
Activities

A.

Respect for Law. A judge should respect
and comply with the law and should act at
all times in a manner that promotes public
confidence in the integrity and impartiality
of the judiciary.

B

Outside Influence. A judge should not allow
family, social, political, financial, or other
relationships to influence judicial conduct
or judgment. A judge should neither lend
the prestige of the judicial office to advance
the private interests of the judge or others
nor convey or permit others to convey the
impression that they are in a special posi­
tion to influence the judge. A judge should
not testify voluntarily as a character wit­
ness.

Canon 1: A Judge Should Uphold the integrity and
independence of he Judiciary
An independent and honorable judiciary is indis­
pensable to justice in our society. A judge should
maintain and enforce high standards of conduct and
should personally observe those standards, so that the
integrity and independence of the judiciary may be
preserved. The provisions of this Code should be con­
strued and applied to further that objective.
Florida Code of Judicial Conduct
Canon 3:
A Judge Shall Perform The Duties Of Judicial
Office Impartially And Diligently

117a
B.

Adjudicative Responsibilities.

(5) A judge shall perform judicial duties with­
out bias or prejudice. A judge shall not, in the
performance of judicial duties, by words or conduct
manifest bias or prejudice, including but not limited to
bias or prejudice based upon race, sex, religion,
national origin, disability, age, sexual orientation, or
socio-economic status, and shall not permit staff, court
officials, and others subject to the judge’s direction
and control to do so. This section does not preclude
the consideration of race, sex, religion, national origin,
disability, age, sexual orientation, socioeconomic
status, or other similar factors when they are issues
in the proceeding.
(7) A judge shall accord to every person who
has a legal interest in a proceeding, or that person’s
lawyer, the right to be heard according to law. A judge
shall not initiate, permit, or consider ex parte
communications, or consider other communications
made to the judge outside the presence of the parties
concerning a pending or impending proceeding except
that:
(8) A judge shall dispose of all judicial matters
promptly, efficiently, and fairly.
COMMENTARY
Canon 3B(5). A judge must refrain from speech,
gestures or other conduct that could reasonably be
perceived as sexual harassment and must require the
same standard of conduct of others subject to the
judge’s direction and control.
A judge must perform judicial duties impartially
and fairly. A judge who manifests bias on any basis in

118a
a proceeding impairs the fairness of the proceeding
and brings the judiciary into disrepute. Facial expres­
sion and body language, in addition to oral communi­
cation, can give to parties or lawyers in the proceeding,
jurors, the media and others an appearance of judicial
bias. A judge must be alert to avoid behavior that may
be perceived as prejudicial.

119a
APPENDIX K
CASE LAW COMPLETE QUOTATIONS
Caperton v. A.T. Massey Coal Company, Inc., 556
U.S. 868, *876 (2009):
“In all the circumstances of this case, due process
requires recusal. Pp. 2259 — 2267.
(a) The Due Process Clause incorporated the commonlaw rule requiring recusal when a judge has a ‘direct,
personal, substantial, pecuniary interest’ in a case,
Turney v. Ohio, 273 U.S. 510, 523, 47 S. Ct. 437, 71
L.Ed. 749, but this Court has also identified additional
instances which, as an objective matter, require
recusal ‘where the probability of actual bias on the
part of the judge or decisionmaker is too high to be
constitutionally tolerable’ Withrow v. Larkin, 421 U.S.
35, 47, 95 S. Ct. 1456, 43 L.Ed. 2d 712).”
City of Hollywood v. Coley, 258 So. 2d 828,*833 [10]
(Fla. 4th DCA 1971):
“Therefore, since as Wrains, supra, concludes,
actual malice is one of the elements of the tort of mali­
cious prosecution, the verdict of the jury awarding
plaintiff in the instant case compensatory damages for
malicious prosecution constitutes a sufficient finding
of malice to justify the award of punitive damages.
We must, therefore, reverse the order of the trial
judge setting aside the jury award of punitive damag­
es to plaintiff on the malicious prosecution count.”
Clemons v. State Risk Management Trust Fund,
870 So. 2d 881, *882 [2][3] (Fla. 1st DCA 2004).
“This is untrue because, even though an element of
malicious prosecution is malice, the Florida Supreme

120a
Court has held that ‘[i]n an action for malicious
prosecution it is not necessary for a plaintiff to prove
actual malice; legal malice is sufficient and may be in­
ferred from, among other things, a lack of probable
cause, gross negligence, or great indifference to per­
sons, property, or the rights of others.’ Alamo Rent-ACar, Inc. u. Mancusi, 632 So. 2d 1352, 1357 (Fla.
1994).”
Cooper Industries, Inc. v. Leatherman Tool
Group, Inc. 532 U.S. 424, *436, 121 S. Ct. 1678, 149
L. Ed. 2d 674 (2001) (citing Ornelas v. United States,
517 U.S. 690, 697 (1996)):
“Likewise, in Ornelas, we held that trial judges’ de­
terminations of reasonable suspicion and probable
cause should be reviewed de novo on appeal.”
Finally, de novo review tends to unify precedent’
and ‘stabilize the law. 517 U.S., at 697-98, 116 S.Ct.
1657.”
«

6

3

>3

Crosby v. State, 97 So. 2d 181, *184 (Fla. 1957):
“The language of this court in State ex rel Davis v.
Parks, 141 Fla. 516, 194 So. 613, 615), is peculiarly
apropos in the present instance. There we said:
‘This Court is committed to the doctrine that every
litigant is entitled to nothing less than the cold neu­
trality of an impartial judge. It is the duty of the
Courts to scrupulously guard this right and to refrain
from attempting to exercise jurisdiction in any matter
where his qualification to do so is seriously brought in
question. The exercise of any other policy tends to
discredit the judiciary and shadow the administration
of justice.

121a
‘It is not enough for a judge to assert that he is free
from prejudice. His mein and the reflex from his
court room speak louder than he can declaim on this
point. If he fails through these avenues to reflect jus­
tice and square dealing, his usefulness is destroyed.’
The attitude of the judge and the atmosphere of the
court room should indeed be such that no matter what
charge is lodged against a litigant or what cause he is
called upon to litigate, he can approach the bar with
every assurance that he is in a forum where the judi­
cial ermine is everything that it typifies, purity and
justice. The guaranty of a fair and impartial trial can
mean nothing less than this.’ We hold that the trial
judge should have disqualified himself and declined to
proceed further in the case.”
Dimick v. Schiedt, 293 US 474, *486 (1935):
“Where the verdict returned by a jury is palpably
and grossly inadequate or excessive, it should not be
permitted to stand; but, in the event, both parties re­
main entitled, as they were entitled in the first in­
stance, to have a jury properly determine the question
of liability and the extent of the injury by an assess­
ment of damages.”
Durkin v. Davis, 814 So.2d, 1246, HN 5 (Fla. 2nd
DCA 2002):
“As to malice on the part of the defendants, the
plaintiff need not allege actual malice; legal malice is
sufficient and may be inferred from among other
things, a lack of probable cause, gross negligence, or
great indifference to persons, property, or the rights of
others.”
Kingsland v. City of Miami, 382 F. 3d 1220, *1228
(11th Cir. 2004) the Court stated:

122a
“Appellant argues that the district court erroneous­
ly concluded as a matter of law that the officers con­
ducted a constitutionally-deficient investigation,
thereby objectively officers should not be permitted
to turn a blind eye to exculpatory information that is
available to them, and instead support their actions
on selected facts they chose to focus upon. We agree.”
Philip Morris USA v. Williams, 549 US 346,*353
(2007), held that:
“For these and similar reasons, this Court has
found that the Constitution imposes certain limits, in
respect to both procedure for awarding punitive dam­
ages and to amounts forbidden as ‘grossly excessive’
See Honda Motor Co. v. Oberg, 512 U.S. 415, 432, 114
S. Ct. 2331, 129 L.Ed. 2d 336 (1994) (requiring judicial
review of the size of punitive awards); Cooper Indus­
tries, Inc. v. Leatherman Tool Group, Inc. 532 U.S.
424, 443, 121 S. Ct. 1678, 149 L. Ed. 2d 674 (2001)
(review must be de novo)”

